<html>
<title> - IMPROVEMENT OPPORTUNITIES FOR THE PUBLIC SCHOOLS IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[Senate Hearing 105-327]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-327


 
  IMPROVEMENT OPPORTUNITIES FOR THE PUBLIC SCHOOLS IN THE DISTRICT OF 
                                COLUMBIA

=======================================================================

                                HEARING

                               before the

 SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND
                        THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 17, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs


                               <snowflake>


                   U.S. GOVERNMENT PRINTING OFFICE
 40-201cc                  WASHINGTON : 1998
_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOHN GLENN, Ohio
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              JOSEPH I. LIEBERMAN, Connecticut
SAM BROWNBACK, Kansas                DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
DON NICKLES, Oklahoma                MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
                        Ron Utt, Staff Director
      Laurie Rubenstein, Minority Staff Director and Chief Counsel
                     Esmeralda M. Amos, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Cleland..............................................     2
    Senator Brownback............................................     3
    Senator Lieberman............................................     4

                               WITNESSES
                        Thursday, April 17, 1997

General Julius W. Becton, Jr., Chief Executive Officer, District 
  of Columbia Public Schools.....................................     6
Dr. Bruce MacLaury, Chairman, Emergency Transition Education 
  Board of Trustees..............................................     9
Hon. Lamar Alexander, Former U.S. Secretary of Education.........    23
Hon. Ed Koch, Former Mayor of New York City......................    26
Dr. Jay P. Greene, University of Houston, Author of ``The 
  Effectiveness of School Choice in Milwaukee: A Secondary 
  Analysis of Data from the Program's Evaluation''...............    38
Jeanne Allen, President, The Center for Education Reform.........    41
Kathleen Sylvester, Vice President of Domestic Policy, 
  Progressive Policy Institute...................................    45
Kevin Chavous, D.C. Councilmember, Chairman, Committee on 
  Education, Libraries and Recreation............................    53
Mark Roberts, Parent of Student in District of Columbia Public 
  Schools........................................................    56

                     Alphabetical List of Witnesses

Alexander, Hon. Lamar:
    Testimony....................................................    23
    Prepared statement...........................................    83
Allen, Jeanne:
    Testimony....................................................    41
    Prepared statement...........................................   149
Becton, Gen. Julius W., Jr.:
    Testimony....................................................    60
    Prepared statement...........................................    65
Chavous, Kevin:
    Testimony....................................................    53
    Prepared statement...........................................   160
Greene, Dr. Jay P.:
    Testimony....................................................    38
    Prepared statement...........................................    98
Koch, Hon. Ed:
    Testimony....................................................    26
    Prepared statement...........................................    86
MacLaury, Dr. Bruce:
    Testimony....................................................    90
    Prepared statement...........................................    78
Roberts, Mark:
    Testimony....................................................    56
    Prepared statement...........................................   168
Sylvester, Kathleen:
    Testimony....................................................    45
    Prepared statement...........................................   154

                                APPENDIX

Draft entitled ``Children First,'' dated March 17, 1997, 
  submitted by General Becton....................................    71
A study entitled ``Effectiveness of School Choice: The Milwaukee 
  Experiment,'' by Jay P. Greene and Paul E. Peterson............   103
An article entitled ``New Research Bolsters Case for School 
  Choice,'' dated Jan. 21, 1997, p. A14 in The Wall Street 
  Journal, submitted by Jay P. Greene............................   148
Charlene Drew Jarvis, Councilmember, Chairman Pro Tempore of the 
  Council of the District of Columbia, prepared statement........   173
Dr. Howard Fuller, Distinguished Professor of Education and 
  Director of the Institute for the Transformation of Learning, 
  Marquette University, Milwaukee, Wisconsin, prepared statement.   176
Ms. Chris Llewellyn, Washington, DC, submitting a report entitled 
  ``Persons with Disabilities and Proposed Closings of DC Public 
  Schools''......................................................   180
Letter dated April 18, 1997 from Tonya Vidal Kinlow, At-Large 
  Representative, District of Columbia Board of Education, with 
  additional news articles and a position paper from the Hearst 
  Elementary School..............................................   181


                     IMPROVEMENT OPPORTUNITIES FOR
                       THE PUBLIC SCHOOLS IN THE
                          DISTRICT OF COLUMBIA

                              ----------                              


                        THURSDAY, APRIL 17, 1997

                                       U.S. Senate,
       Oversight of Government Management, Restructuring,  
                     and the District of Columbia Subcommittee,    
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:20 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senators Brownback, Lieberman, and Cleland.
    Staff Present: Ron Utt, Staff Director, Esmeralda M. Amos, 
Chief Clerk, and Joyce Yamat, professional staff member.
    Senator Brownback. We will call the hearing to order. 
Appreciate our witnesses coming today. I have a couple of quick 
announcements. We are going to go out of order on opening 
statements due to Senator Cleland's other obligations that he 
has. I want to make one introduction of a witness that is not 
here to testify but that is here to help us out on the TV 
industry, an item that we had a hearing on yesterday. Dean 
Jones is with us. Dean, you might remember from ``Love Bug,'' 
and ``That Darn Cat''--Dean, stand up --some 40 other movies, 
pictures, and now wants to work to help clean up television and 
produce some good family quality films in the future so he is 
here meeting with you. Thanks for joining us.
    Mr. Jones. It is a pleasure to be here.
    Senator Brownback. And we want to help and support your 
effort. I do need an unanimous consent from the other Members, 
if I could, on extraneous matters being introduced into the 
record that some of the witnesses put forward.
    Senator Lieberman. Without objection, we will allow that 
information to be put into the record.\1\
---------------------------------------------------------------------------
    \1\ Miscellaneous statements and information submitted for the 
record appears in the Appendix on page 173.
---------------------------------------------------------------------------
    Senator Brownback. This is a key hearing today on education 
in the District of Columbia. We have a number of excellent 
witnesses. We have some tough questions on what has taken place 
on the educational system within the District of Columbia that 
we need to confront for the citizens of the District and also 
for the citizens of this Nation. So I hope we can have a very 
enlightening, a very frank, a very clear discussion on what we 
are going to do to better provide for education of the children 
in the District of Columbia. I have an opening statement as 
does Senator Lieberman, but as I mentioned at the outset in the 
interest of Senator Cleland's time, who has some other 
obligations, I would like to turn the microphone over to 
Senator Cleland for his opening statement before I issue my 
own. Senator Cleland.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman. I 
appreciate your indulgence and the indulgence of Senator 
Lieberman. Mr. Chairman, I'm pleased that the Subcommittee is 
holding a hearing to determine just how to improve the public 
schools in the Nation's capital. I came to Congress with a 
strong commitment to public education. I am a product of that 
public educational system. I went through the public school 
system in De Kalb County, graduating from Lithonia High School 
in Georgia. I was a State Senator from that area and sat on the 
Education Committee, and as former head of the Veterans 
Administration, I ran the largest educational program in the 
country, the GI bill.
    I do believe the Federal Government should be a partner 
with States, local districts and schools, to provide the 
educational opportunities that will allow all children to reach 
high academic standards in positive learning and teaching 
environment. I also believe there is tremendous common ground 
here in the Congress and in the country in support of efforts 
to improve public education, both by making sufficient 
resources available and by insisting on more accountability, 
more safety and more discipline and higher standards.
    It was unfortunate, in my view, that in the last Congress, 
the efforts to improve the D.C. schools centered on a divisive 
and controversial effort to push private school vouchers paid 
with public tax dollars. In my opinion, this was not good 
educational policy. It was not frankly constitutional. I hope 
in this Congress we can work on a bipartisan basis and move 
forward with an agenda to improve public schools in D.C. and in 
every urban, suburban and rural school in the country. As I 
said before, there is considerable common ground here. I 
believe it can be done. We must give every child a healthy and 
safe school building, teachers who are certified teachers, up-
to-date textbooks and state-of-the-art educational activities, 
and the support services of health care, nutrition, and 
enhanced parental and community involvement to make it possible 
for teachers to teach and students to learn.
    These must be joined by effective measures to improve 
accountability and standards in our public schools. Serious 
concern has been raised about the Milwaukee and Cleveland 
voucher programs. The recent Milwaukee study, which we will 
hear about today, has been criticized by a variety of academic 
researchers for serious methodological flaws. For example, a 
question has not been answered apparently, which is what 
happened to the 25 percent of the voucher accepted students who 
left the voucher schools each year in Milwaukee? At this point, 
I think it is fair to say that the research on Milwaukee does 
not prove the case that significant achievement gains have 
occurred because of vouchers, something one would expect to see 
if the proponents of vouchers are right that private schools 
are inherently better than public schools.
    Mr. Chairman, now is not the time to give up on our public 
schools. What we now need is public school reform. The most 
creative ideas often come from teachers, parents, students, 
locally elected boards of education, principals and community 
members. We need to have curriculum and assessments that embody 
high academic standards, an effective discipline policy, and a 
professional development program that enables school staff and 
administrators to implement good teaching and learning 
practices. The forms adopted under this system will be 
realistic and empower teachers to teach and students to learn 
and parents to get involved.
    At a time when government spending at all levels of 
government are heavily constrained, we must avoid shifting 
public tax dollars away from public educational improvement. No 
company has retooled itself on the cheap. My strong preference 
would be to have this Subcommittee focus our efforts in how to 
improve our public schools and not on how to transfer a few 
students into private and parochial schools with public 
dollars. Mr. Chairman, unfortunately my schedule does not 
permit me to stay here for the testimonies. However, I will 
look forward to reviewing your written remarks and I apologize 
to the witnesses for they have traveled so far.
    Senator Cleland. Mr. Chairman, thank you again for allowing 
me to make these remarks. Thank you so much.
    Senator Brownback. Thank you, Senator Cleland.

             OPENING STATEMENT OF SENATOR BROWNBACK

    Senator Brownback. I want to welcome our many guests and my 
colleagues and our very distinguished panelists in our series 
of oversight hearings. This is our second hearing that we are 
having today on the District of Columbia. Our first hearing 
covered tax incentives for the city's revival, and today we 
will focus on education in the District's troubled school 
system.
    I have to note at the very outset some extraordinarily 
troubling incidences that have been reported in the newspaper 
this week that occurred last week. I cannot tell you how 
troubled I was to read this in the Wednesday Washington Times 
about school sex incidences being common, that the President of 
the D.C. School Board is saying that these incidences involving 
9- to 12-year old children disrobing, performing sexual acts in 
the classroom, that is just incredible. It is outrageous. My 
daughter is in the fifth grade, 11 years old, and would be in 
that category of age, and I cannot imagine this taking place. 
This is beyond the pale, and I want to talk about this today, 
about what is it that we do to change this because this is not 
right for the kids. It is just not right and we have got to 
stop those things from taking place.
    I hope we can have some good dialogue. I know you are in 
the middle of sorting some of this out of what we have to do to 
resolve that, but this cannot be allowed to continue, and I 
want to discuss that here today, and Senator Lieberman and I 
will be discussing this after this hearing in this room, as 
well as about these unfortunate incidences that have taken 
place.
    Now, getting back to the issue at hand, I find that despite 
the availability of financial resources, which do compare 
favorably with other school systems, the District of Columbia 
schools suffer from poor performance, threats to safety and 
well-being, shortages of materials and supplies and a crumbling 
infrastructure that has necessitated court ordered closings and 
repairs. And as for educational performances, I am sad to say 
that the facts do speak for themselves. For elementary school 
students, reading scores are well below the national average 
and have actually declined significantly in three of the city's 
wards. Performance on the Comprehensive Test Basic Skills is 
below the national average. Scholastic Aptitude Test scores are 
also well below the national average and below those of the 
neighboring jurisdictions.
    Because of these and other reasons, last November the 
control board exercised the responsibility given to it by 
Congress and stripped most of the responsibilities from the 
existing school board, replaced the superintendent, and 
appointed the Emergency Transitional Board of Education 
Trustees, representatives of which are here with us today.
    Before we begin, I would like to add to these brief 
introductory remarks another perspective to this hearing by 
trying to express what this issue means to our Nation's most 
precious and most vulnerable asset, and that is our children. 
It is they who are the chief victims of failed schools and 
failed approaches to badly needed reform. Although the outward 
manifestations of school failings are many, perhaps none is 
more harmful than the exceptionally high dropout rate that 
leaves an alarming number of students without a diploma. In 
today's demanding world, costs of these failures are extreme, 
and these dropouts will pay this price everyday for the rest of 
their lives and then on top of that some of these sex instances 
within the schools, and that impact is just extraordinarily 
damaging to our children.
    Losses of this magnitude are one of the many burdens that 
are being imposed upon our children, but even worse for those 
students who already begin life in some cases with too many 
disadvantages. As Americans, this should be a source of shame 
for us, and it should motivate us to do better than we have and 
to look for new ways to solve our problems. To help us develop 
these reforms, Senator Lieberman and I have invited some of our 
best and brightest education experts from all walks of life to 
share with us their wisdom and experience with an opportunity 
to hear also from the distinguished General Becton, several of 
America's former top State and local officials, concerned 
parents and experienced educators. I think we will have a very 
productive session this morning as we talk about one of the 
most difficult issues confronting the District of Columbia and 
certainly confronting some of our most vulnerable and most 
important assets in the form of our children.
    We will have our first panel up momentarily. I would like 
to turn the microphone, though, first over to Senator Lieberman 
for an opening statement. Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Mr. Chairman. I am really 
delighted to continue to work with you on these problems of 
mutual concern. I share with you obviously the sense of 
profound concern but really outrage particularly at this event 
with the students involved in so-called consensual sex, young 
people. I have a 9-year-old daughter so we all identify with 
this in a personal way, but you know it struck me as I have 
been following this story in the papers and TV, radio, here in 
Washington, that this is one of those events where we hear so 
much bad news, sometimes it becomes an avalanche, and we are 
unable to distinguish, but this is one of those events that we 
ought to stop and absorb in all its horror and see it as a sign 
of the decline of our civilization that this could have 
happened in a public school which used to be, in loco parentis, 
in place of the parents. You know this kind of thing was 
unthinkable and maybe it will rivet our attention. You remember 
decades ago, the Kitty Geneves case, where this woman was being 
attacked and screamed out and neighbors--later it turned out an 
awful lot of people heard her but were too frightened to do 
anything about it. And this dreadful event may be so horrible 
that it may galvanize public opinion and a willingness to focus 
on the kids, who, as you said, are the victims here.
    Too much of the argument about what to do about education 
in political circles has to do with vested interests, with the 
status quo, with protecting the form of education as opposed to 
focusing on what is best for the kids. And that is what I hope 
we will do here today. The plight of the schools of the 
District of Columbia is tragic and disgraceful. When it happens 
in the District, it becomes not only a local tragedy and a 
local disgrace, it becomes a national tragedy and a national 
disgrace. But the truth is what is happening here, though worse 
than in many cases around the country, most cases, is also 
typical of what is happening in a lot of places in our schools.
    I can tell you that it hits particularly close to home for 
me this morning, Mr. Chairman, because the capital city of my 
State, which is Hartford, Connecticut, is going through a 
similar crisis. Just yesterday, the General Assembly of the 
State of Connecticut dissolved the Hartford Board of Education 
and took over the Hartford schools because the school system, 
like so many around the country, has been plagued by a 
shrinking tax base and an increasingly disadvantaged and 
segregated student population, and years of petty bickering and 
political turf fighting among political people, teachers 
unions, administrators unions, and in the midst of it all of it 
what is forgotten is the kids.
    Obviously, the D.C. Control Board took much the same action 
last fall as the Hartford School Board endured yesterday. And I 
think there is a broad consensus that that was the right and 
necessary thing to do. We are very privileged to have with us 
this morning the new management team to testify for the first 
time before Congress, and I want to personally welcome you, 
General Becton and Dr. MacLaury. I admire your courage in 
taking on these assignments. As General Becton said, he has 
some friends who have suggested to him that he should have 
checked with a psychiatrist before doing this, but let us put 
it this way, I put the emphasis on your courage.
    There has been a lot of speculation about your plans for 
resuscitating the District school system, and I look forward to 
hearing from you what those plans are and how we can be of help 
to you. The Chairman, Senator Brownback, and I are very anxious 
to play a constructive and supportive role. In some cases, 
frankly, to play an advocacy or agitating role as the Senate's 
Oversight Subcommittee for the District of Columbia, if that 
seems appropriate. We are going to explore today some 
innovative ways to go at this. One is the whole question of a 
scholarship or voucher program for low-income families. I was 
sponsor of legislation a year ago that would have created such 
a program, offering annual scholarships of up to $3,000 to more 
than 1,000 District students who qualified based on need.
    That legislation actually garnered the support of a 
majority of the Congress and will likely do so again this year, 
but for it to work, it has got to have broader support 
including the full support of the folks who are running the 
District of Columbia school system. I am also very interested 
to hear about the city's new charter school program. I must say 
that I am concerned by the pace at which this program is moving 
forward and some of the reports I have heard about its 
mismanagement. So I will look forward to hearing from both of 
you about that.
    Mr. Chairman, in closing, let me reiterate what you have 
said, which is our need to be open to new ideas here and new 
solutions, remembering that these are not normal times, and 
they do not call out. These are not normal situations in the 
school system, and they call out, in that sense, for abnormal, 
bold, radical, unconventional responses, which recognize that 
we are not just losing generations of young people, we are 
destroying generations of young people. There was a startling 
statement in a report produced by the control board here in 
Washington, which said that the longer students stay in the 
District's public school system, the less likely they are to 
succeed educationally. Can you imagine that? Well, we have to 
turn that around, and I hope together with you, we can. Thanks, 
Mr. Chairman.
    Senator Brownback. Thank you, Senator Lieberman.
    Our first panel is General Julius W. Becton, Jr., the Chief 
Executive Officer for the District of Columbia Public Schools. 
Along with him will be Dr. Bruce MacLaury, Chairman of the 
Emergency Transition Education Board of Trustees. General 
Becton, we welcome both of you to the Subcommittee. We look 
forward to a discussion of what we can do to solve this crisis 
problem for our children, and General Becton, I may suggest 
this may be the toughest battle in your distinguished career 
that you have joined. It is certainly one of the most 
important.
    Welcome General Becton.

TESTIMONY OF GENERAL JULIUS W. BECTON, JR.,\1\ CHIEF EXECUTIVE 
          OFFICER, DISTRICT OF COLUMBIA PUBLIC SCHOOLS

    General Becton. Thank you, sir. Mr. Chairman, Senator 
Lieberman, at the outset let me point out clearly I share your 
outrage of the events that you mentioned, and I assure you that 
we are doing everything legally possible in this matter. I 
welcome the opportunity to appear before you today to discuss 
improvement opportunities for public education in the Nation's 
capital. I have with me several members of my senior staff who 
I may ask to respond to some of your questions. I will 
summarize my remarks but I have a prepared statement that I 
would like to submit to you at the end of my report.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Becton appears in the 
Appendix on page 65.
---------------------------------------------------------------------------
    Senator Brownback. Without objection.
    General Becton. Mr. Chairman, to understand where we are 
and where we are going, it is important to consider the 
tremendous change that has occurred within the last year in the 
governance and direction of the D.C. public schools. As you 
stated, I became the chief executive officer through an order 
of the D.C. Financial Authority on November 15, 1996. As CEO, I 
serve both as Superintendent and Chief State School Officer. 
This order also establishes the 9-member Emergency Transitional 
Education Board of Trustees, of which I am a member, and of 
course, Dr. MacLaury is the Chairman.
    Six months before the Financial Authority's order, in April 
1996, Congress passed the District of Columbia School Reform 
Act of 1995. This act required the development of a long-term 
education reform plan. It also required the design and 
implementation of a comprehensive program for the repair, 
improvement, maintenance and management of the public school 
facilities.
    In addition, the act established a charter school law for 
the District of Columbia.
    Having set the context in which we are now operating, a 
context that provides tremendous opportunity for a positive 
change, I will now turn to our goals for improving public 
education in the District. To characterize our goals as simply 
as possible, I believe that by June 30, 2000, our successes or 
failures will be judged on whether or not we achieve 
fundamental improvement in three core areas: (1) academics; (2) 
school facilities; and (3) personnel and financial management 
systems.
    What I mean by fundamental improvement is that these core 
areas will be on a firm foundation for continuous progress in 
future years. My guiding principle in this effort is ``Children 
First.'' \1\ All of our efforts must be weighed in terms of 
their impact on children first. Our goals for the core area of 
academics embrace the objectives of the School Reform Act of 
1995 and elaboration on those objectives in the Children First 
Framework developed by the Emergency Board of Trustees. The 
Children First Framework provides the blueprint for the long-
range education reform plan we are now developing. I have 
included a copy of the framework for the record.
---------------------------------------------------------------------------
    \1\ A draft entitled ``Children First,'' March 17, 1997, appears in 
the Appendix on page 71.
---------------------------------------------------------------------------
    Our first goal is to ensure that all students are taught to 
world-class academic standards to prepare them for productive 
work, further education and responsible citizenship. To 
accomplish this goal, we must first adopt rigorous content and 
performance standards, with aligned curriculum, assessments, 
and professional development.
    Our second goal in the core area of academics is to provide 
an academically competent, well trained and caring staff and 
hold them accountable for results. To accomplish this, we must 
adopt clear standards for competency for hiring and evaluating 
principals and teachers.
    Our third goal in the core area of academics is to promote 
school autonomy and accountability through decentralization and 
greater parental choice. To accomplish this, we will foster a 
variety of school restructuring efforts and facilitate the 
development of high quality charter schools.
    Concerning public charter schools, we intend to facilitate 
the development of high quality charter schools that will serve 
as laboratories of change for the entire school system. To 
accomplish this, we will work closely with the two existing 
chartering authorities. We are also developing an expanded role 
for the Emergency Board of Trustees. As a State education 
agency, the Emergency Board of Trustees has responsibility for 
all public schools, including charter schools.
    The School Reform Act of 1995 permits the establishment of 
up to 100 charter schools over the next 5 years, including the 
conversion of existing public schools, now operated and managed 
by the Board of Trustees and the CEO. We believe that charter 
schools with high quality educational programs and sound 
business management hold great potential to improve the choices 
and quality of public education available in the District.
    Last, a comment on tuition vouchers, one form of school 
choice that may become a topic of much debate, as it has before 
in this city. While the Emergency Board of Trustees does not 
have an official position on tuition vouchers, we do have 
several concerns. Our first concern pertains to accountability. 
While charter schools are privately operated, independent 
schools with performance contracts through public bodies, can 
similar accountability for students' outcome be built into a 
voucher arrangement? Would private schools receiving tuition 
vouchers agree to meet certain standards? If so, how would such 
schools differ from charter schools?
    Our second concern relates to the impact a protracted 
debate over tuition vouchers, or an effort to implement them, 
could have on our progress in achieving the fundamental reforms 
just underway, including implementation of the charter school 
legislation. As you consider potential legislation in the area 
of tuition vouchers, we ask that you consider these areas of 
concern.
    In the core area of school facilities, we have developed a 
Long Range Facilities Master Plan, which we believe will allow 
us to return our school facility inventory to a safe 
environment that is conducive to teaching and learning. We 
intend to submit this plan to the Congress by April 25, as 
required by the School Reform Act.
    Our goals for the third core area, personnel and financial 
management systems, involves rebuilding broken systems and 
implementing new ones. We must restructure the ways that we 
develop, evaluate, and track personnel. Our first goal must be 
to know exactly how many employees we have, what they are 
doing, and how they are funded. We will have that effort 
completed in May. Then we must determine whether their jobs are 
consistent with our goals. Our goal for improving financial 
management includes presenting a budget for fiscal year 1998 
that is built from scratch and from the bottom up, based on a 
school-based budgeting formula as required by the School Reform 
Act of 1995.
    To conclude my statement, I feel compelled to restate my 
guiding principle: Children First. The pledge I make today, and 
the pledge I will continue to make, is that all of our efforts 
in achieving fundamental improvements in the three core areas 
of academics, school facilities and personnel and financial 
management systems must be weighed in terms of their impact on 
children. Failure to meet the needs of the children in this 
city is not an option. Sir, that concludes my portion of the 
remarks, and I would like to turn it over to Dr. MacLaury.
    Senator Brownback. Thank you very much, General Becton, and 
we will look forward to a good discussion. Dr. MacLaury, thank 
you for joining us.

TESTIMONY OF BRUCE MacLAURY,\1\ CHAIRMAN, EMERGENCY TRANSITION 
                  EDUCATION BOARD OF TRUSTEES

    Dr. MacLaury. Thank you very much, Mr. Chairman and Senator 
Lieberman. It is a pleasure to be here today. Let me preface my 
comments by saying that I share your outrage at the incidences 
that have occurred within the D.C. public schools this past 
week. I have full confidence in General Becton and the actions 
that he has taken and is taking and will take with respect to 
both violence and safety in the schools. That has been 
enunciated as our top priority. This week shows that we still 
have a ways to go.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. MacLaury appears in the Appendix 
on page 78.
---------------------------------------------------------------------------
    The 9-member Board of Trustees was established by the 
District of Columbia Financial Responsibility and Management 
Assistance Authority to act as agents of that Authority 
responsible for the operation and management of the D.C. public 
schools. Five of the trustees, all of whom reside in the 
District, were appointed directly by the Authority. One member 
was selected by the Authority from a list of three parents of 
D.C. public school students, submitted by the mayor. One member 
was selected by the Authority from a list of three D.C. public 
school teachers provided by the Council of the District of 
Columbia.
    The CEO/Superintendent, General Becton, is a member of the 
trustees, as he said, and so is the President of the D.C. Board 
of Education. Those are the members of the new Emergency Board 
of Trustees. The Financial Authority established the trustees 
after declaring a state of emergency in the District's public 
school system. This drastic action was precipitated by its 
finding ``that in virtually every category and for every grade 
level, by virtually every measure of performance, the District 
public school system has failed to provide a quality education 
for all children and a safe environment in which to learn.'' 
That is a quotation from the Control Board's order.
    More specifically, the Authority concluded that, despite 
per pupil expenditures that exceeded the national average, the 
D.C. public schools had student test scores, as you pointed 
out, Mr. Chairman, that were consistently below the national 
averages, that the schools were unacceptably violent, that they 
lacked such vital materials and services as textbook, and 
teacher training, and that they displayed gross mismanagement 
in the areas of personnel, facilities, procurement, budget and 
finance.
    Based on these findings, the Authority directed, authorized 
and empowered us as trustees and the CEO/Superintendent: To 
improve the quality of education services provided to D.C. 
public school students; to strengthen school system management; 
to reduce the costs of non-educational services--that is a key 
point; to develop a long-term educational reform plan; to 
develop District-wide assessments and establish procedures to 
ensure that teachers are accountable for student performance; 
to make recommendations to improve community, parent and 
business involvement; to assess D.C. public school students' 
opportunities to participate in such events as arts and 
athletics; to establish procedures that ensure that D.C. public 
school students acquire the skills necessary for employment; 
and to enact policies and procedures that ensure that the 
school system runs ethically and effectively. That is a long 
list of mandates that came to the trustees from the Control 
Board, and we are doing our best to live up to these mandates.
    Toward these ends, the trustees have, to date, approved a 
draft education framework for the D.C. public schools, which 
General Becton has submitted for the record. We have also 
devoted considerable time and energy to assessing nationally 
recognized academic standards as well as aligned assessments 
and teacher training. It is our intent to have those high 
standards in place by the beginning of the next school year.
    In a parallel effort to improve school system management, 
we have approved a proposed 1998 budget for the D.C. public 
schools that is school-based, as General Becton said, and 
premised on the reduction of non-instruction positions. We want 
people in the classroom who are competent and can instruct the 
children, but we do not need more people in the schools or in 
the central offices than are absolutely necessary to provide 
needed services.
    We have also begun the arduous task of closing schools and 
will vote to close a number of our buildings by the end of this 
month. The ultimate goal of the trustees is set out in the 
vision statement that we adopted. It is to educate all D.C. 
public school students in schools of the future, that are 
collegial communities of professional and intellectually 
prepared teachers and administrators who teach to world-class 
standards in safe and caring environments in which children 
master academic, technological and social competencies that 
give them real choices in life and provide bridges to further 
education, productive work, and responsible citizenship.
    Now that is a very big mouthful. It is a high aspiration. 
The children deserve no less, and it is the trustees' 
responsibility to see that this vision is translated into 
reality. We undertake this responsibility with great 
seriousness, Mr. Chairman. I will end my remarks here and will 
be happy to respond to your comments and questions.
    Senator Brownback. Thank you, Dr. MacLaury. I appreciate 
that. Because there is so much on my mind, I want to start off 
with this incident of the sex in schools taking place because I 
just find this horrendous that it actually occurred and with 
students of that age. What immediate steps are being taken to 
ensure that these acts do not occur now or in the near future 
or ever again in the D.C. schools? What is taking place now?
    General Becton. Mr. Chairman, I wish I could assure you 
that they will never occur again, but I also recognize the fact 
that what we had in that school was the result of, in my 
judgment, inattentiveness on the part of a teacher, who by the 
way had a class that was twice the size it should have been, a 
failure of the system to provide the teacher that should have 
been replaced, and the concern or lack thereof on the part of 
the principal, but we are in the process, as we speak, of 
taking a hard look at exactly what happened and, as I mentioned 
earlier, we are in the process of dealing with the two people 
directly concerned. I cannot discuss publicly what actions I 
have taken until they have had their legal procedures process 
provided to them. We are using this as a vehicle to get to all 
the other schools to point out to teachers and principals alike 
that these kinds of things cannot be tolerated, that we must 
pay attention, we must assume certain responsibility, we cannot 
leave children unattended in large groups behind closed doors. 
And we also appeal to the public, to the parents, that they 
must take some responsibility, too, because according to what I 
read in the papers, as you did, some of these ideas came from 
children who have seen videotape at home of some of the acts. I 
would like to tell you that we can control that; we cannot.
    Senator Brownback. The President of the D.C. School Board 
said in Wednesday's newspaper, and I just want to read you this 
quote, and ask you to tell me this is not true. But he said if 
the media wanted to go around and look at other schools, they 
would see incidences like that going on all the time, referring 
to these sexual incidences that occurred on April 7 with these 
children ages 9 to 12. Is that true?
    General Becton. I do not believe that is the case.
    Senator Brownback. What steps are being taken to put in 
place a zero tolerance for sexual acts in grade schools in the 
District of Columbia? To me, I hope you are establishing that 
as a standard yesterday.
    General Becton. We have started, sir, not just yesterday, 
but from the very beginning of my administration. On the 
subject of matters of sexual harassment, we have a zero 
tolerance policy stated. And the employees know that; the 
students have heard that. I have used the term whenever I had 
an opportunity to point that out. You are asking what specific 
things we have done subsequent to that action last week? We 
have not put anything out in writing except to reiterate what 
we have in writing already.
    Senator Brownback. Dr. MacLaury, do you care to respond to 
any of those statements or questions I had?
    Dr. MacLaury. Again, I have no knowledge that this kind of 
incident is rampant in the schools. I do not know. I have not 
spoken with Don Reeves, the President of the School Board, as 
to the basis on which he made that statement, but I will speak 
with him. If he has any evidence of that kind of activity, he 
should be bringing it to us rather than just reporting it to 
the press.
    Senator Brownback. I think this is an item of primary 
importance. I mean if you have children that age doing sexual 
acts, how are they ever going to learn in that type of 
environment where things are taking place. I just cannot even 
imagine that they could possibly learn if these are instances 
that are occurring.
    Dr. MacLaury. I think that it is fair to say that you are 
absolutely correct, but the same thing could be said of acts of 
violence or intimidation or drugs or any other kind of illegal 
activity that is taking place in or near the schools. This is 
not a single kind of action that is being focused on. It is the 
entire environment in which the children must have security and 
safety in which to learn.
    Senator Brownback. Well, answer me this then. Should we not 
be providing then choice or vouchers to the parents of children 
at Winston School where this incident occurred today so that 
they are not having to stay in that environment? I mean, 
General Becton, if you had troops that were pinned down in an 
area that was very damaging to their health or situation, you 
would do everything you could to get them out of there 
immediately.
    General Becton. That is correct.
    Senator Brownback. Should we be allowing those students or 
their parents if they desire to get out of that school that 
they get out immediately with a voucher or whatever other 
options are available for education?
    General Becton. Mr. Chairman, the parents obviously have a 
choice of moving from a school to another school with 
sufficient reason for that. I do not believe that this should 
be used as an example of a typical activity, typical 
environment in Winston or in any other school. I think what we 
have, as I said before, is an aberration. I would hope that it 
would never happen again. I cannot give you my word on it. We 
can work to make sure that teachers and principals are 
sensitive to it, but I do not think that this should be the 
reason that we should start a new program called vouchers. I 
think there are many, many other areas that we should certainly 
explore and also consider what we are saying when we do talk 
about the subject of vouchers.
    Dr. MacLaury. Senator Brownback, may I add to that one 
comment?
    Senator Brownback. Please.
    Dr. MacLaury. It seems to me we have an obligation to all 
of the children and all of the parents in that school and in 
every school. We have to make sure that that school is safe and 
not just give vouchers to those parents who have sufficient 
concern and ability and interest to move their children. 
Vouchers may be a possibility, but, in addition, we have to fix 
that school so that cannot happen for those parents who do not 
choose to have their children move.
    Senator Brownback. Currently, children and parents do have 
choice within the public educational system in the District of 
Columbia. You would grant to any of those parents concerned 
about their students today that they are allowed to move their 
children out of Winston School today if they are concerned 
about this instance?
    General Becton. We would.
    Senator Brownback. OK. I will have additional questions, 
but we are going to move this back and forth some on a time 
clock. So Senator Lieberman, I am happy to let you have a round 
of questioning.
    Senator Lieberman. Thanks, Mr. Chairman. Obviously I am 
just going to briefly continue on this subject of this incident 
with the fourth graders just because it rivets us and it is the 
extreme of what we have heard although obviously we have heard 
a lot of different horror stories, and I want to just focus on 
what is happening now because obviously this is a critical 
moment in terms of the messages you are sending. What is 
happening to the teacher and the principal involved here now? 
Are they still on duty?
    General Becton. They are not.
    Senator Lieberman. So you have by some form you have 
administratively suspended them?
    General Becton. They are on administrative leave right now.
    Senator Lieberman. Yes. That was something you ordered, 
General, or----
    General Becton. That is correct.
    Senator Lieberman. OK. That is good. And now there is a 
disciplinary process or adjudication process of some kind going 
on?
    General Becton. That is correct, sir.
    Senator Lieberman. OK. Well, obviously you have to make the 
judgment, but I appreciate the strength of your statements 
because everybody is watching, particularly other people in the 
school system, and the way in which you handle this and the 
severity of the reaction, I think, is going to be the beginning 
of a deterrence policy to try to stop this from happening, but 
again, we are putting a lot of pressure on the schools in this 
period of our history because families have failed, the culture 
has failed. We held a hearing here yesterday about the impact 
of television on kids' values, and we had some experts here. 
They have studied the impact of violent television shows on 
kids, and they find that they make the kids more violent. The 
research is just beginning on the sexual content of the 
entertainment culture, but I would be shocked if the research 
does not show that if kids come home from school and they watch 
these trash talk shows and all they hear about is sex and sex 
and sex, if they turn on the soap operas in the afternoon when 
they come home, and they see people constantly getting into bed 
half naked and being involved in sexual acts, and there is no 
standard above them, whatever, either parents or religion or 
whatever, they are going to bring this into, human nature being 
what it is, it is going to come into the schools and then we 
are going to ask you to deal with it.
    So I do not blame it all on the school system, but now it 
is your problem, and I think the least we can ask is that you 
create a climate in which there is, as the Chairman said, zero 
tolerance and real tough punishment of anybody responsible for 
this kind of behavior. Part of the public outrage here was not 
just the fact that this occurred with young kids, but the 
reaction of the administrator on the scene who sort of 
dismissed it as, well, it was consensual sex. I mean, can a 9, 
10, 11, or 12 year old, can we say that appropriately?
    As you know, one of the parents, at least one, has said 
that their daughter was not consensually involved. All right. I 
am going to leave that for now and let me just step back from 
your opening statements and ask you this. You are both people 
of experience and admirable accomplishment, and you come to 
this at about 2 minutes till midnight here, and this is late in 
the day, and we are putting a lot of pressure on you and hope 
on you. Let me just ask you, apart from the opening statements, 
which I heard, speak to me, we are just meeting across the 
table, you have been given this enormous problem to deal with, 
what do you see? What is the problem? How have we gotten to a 
point here in our Nation's schools, our capital school system, 
where school violence is out of control, 40 percent of the kids 
do not graduate from high school. I mean it goes on and on and 
on. Bloated administrative budgets. But what is wrong? If you 
had to cite the top three things, just talking across the 
table, what has happened here? How has this happened? General, 
do you want to start?
    General Becton. Sure. Let me first point out, Mr. 
Lieberman, I came to the District in 1964. I have five grown 
children, all five of our children attended school in the 
District of Columbia, two graduated from Coolidge. The third 
one entered sixth grade and her mean old father took her out of 
school in 12th grade and took her to Killeen, Texas. It took 
her a long time to get over old dad doing that to her. But the 
point I am trying to make is I know what a good school system 
looks like. We had one.
    Senator Lieberman. Incidentally forgive me for 
interrupting. Delegate Eleanor Holmes Norton was here 
testifying before us about a month or so ago, made the same 
statement. She is a graduate of this school system. I got to 
know her--not that this is a badge of success for her or me--
but when we were both at Yale Law School together. So I mean 
she clearly got well prepared in the District school system. 
This was not always the case. You are absolutely right.
    General Becton. So the point I am saying it has taken a 
long time for the District schools to get where they are today. 
If you take a look at the maintenance of the school buildings, 
we have according to GSA about $2 billion of deferred 
maintenance. It did not get like that over night. It took a 
long time of not paying attention to details.
    Senator Lieberman. Two billion dollars.
    General Becton. Two billion dollars. That is GSA's figures.
    Senator Lieberman. Schools in disrepair physically.
    General Becton. That is correct. That is what GSA tells us. 
School violence, I think is the No. 1, my No. 1 challenge when 
I assumed the responsibility back in November, to reduce the 
level of violence because I am convinced that if you can do 
that, you can permit the student to learn and the teacher to 
teach without having fear of being attacked or something 
happening in their classroom. We have reduced the level of 
violence.
    Senator Lieberman. So your first goal, and it seems like a 
reasonable one--if any school 20 years ago would have said 
what? That is my first goal? But that is what you saw. That is 
very important.
    General Becton. To me it is the most important. And also by 
the way I put up there safety of that youngster.
    Senator Lieberman. Right.
    General Becton. Where we are talking about fire code 
violations or nutrition--all those things go to create the 
environment.
    Senator Lieberman. School violence, General, you mean among 
students, students against teachers, what?
    General Becton. All of the above.
    Senator Lieberman. Including----
    General Becton. And we have outsiders to come into our 
schools who do not belong in the school, which is why we are 
restricting the entrance so that we can identify who is coming 
in and also check through metal detectors. We have not bought a 
new metal detector in the school system. Everyone we have has 
been donated, and were all donated back in 1990 and 1991. We 
have requested through our budget request that Dr. MacLaury 
mentioned $12 million for our security so that we can buy 
state-of-the-art equipment, so we can do something about the 
level of violence.
    Senator Lieberman. Because students and others are bringing 
weapons in the school.
    General Becton. They are.
    Senator Lieberman. Guns?
    General Becton. Yes.
    Senator Lieberman. Knives?
    General Becton. Yes. Matter of fact, we had the D.C. 
Metropolitan Police Department give a presentation and they 
showed the weapons that have been brought in. It was shocking 
to see what they picked up.
    Senator Lieberman. And teachers are being threatened?
    General Becton. Teachers have been threatened.
    Senator Lieberman. And violence is being committed against 
teachers? That is what you found.
    General Becton. We have had examples of that.
    Senator Lieberman. So, you feel you are making progress on 
that front?
    General Becton. We are making progress although I must tell 
you that when you pick up the paper, it does not reflect that 
way. But I get a report every morning on the level of 
incidents, and we believe we are making progress.
    Senator Lieberman. OK.
    General Becton. A second thing, just as important, however, 
are the academics. What are we doing about that? You asked how 
did we get where we are. I cannot give you an answer how we got 
where the longer you stay in the school, the worse off it is 
becoming.
    Senator Lieberman. Right.
    General Becton. What we are trying to do, however, is to 
make sure that the teachers are teaching at the level that they 
should be. We are also trying to make sure that the students 
are no longer being pushed along just because they are a 
certain age, but they actually can read at a certain level 
before they move on, and we are dealing with that, where we 
call it social promotion or whatever you want to call it. That 
is an area of great concern.
    And the third one related to that: academic support. Our 
teachers in the Nation's capital are the lowest paid teachers 
in the area. And we've got to do something about that, and we 
are trying to do that through our budget request.
    Senator Lieberman. You got a large number that are not 
certified; am I right?
    General Becton. No. There are not a large number not 
certified.
    Senator Lieberman. I got one note here saying 32 percent of 
classroom teachers do not have required certifications.
    General Becton. I do not recognize that number at all. I 
can check with my experts, but----
    Senator Brownback. My number says 19 percent of classroom 
staff have no certification to teach according to the Control 
Board.
    General Becton. There are two examples. Let me ask if I 
could, if you want to----
    Senator Lieberman. You can respond to that.
    General Becton. OK. We will respond to that in writing.
    Senator Lieberman. Fine.
    General Becton. The other area which is a great concern and 
I think we are making progress there are our total physical 
plant. I mentioned deferred maintenance, and we are trying to 
do something about. Dr. MacLaury alluded to that. We have 157 
schools, for a population of less than 80,000 students. Those 
buildings were built basically for almost twice that number. We 
have some schools that have 25 percent utility, utilization of 
their classroom space.
    We want to reduce that number so we can spend the money 
back where it belongs, to deal with the subject of academics, 
to deal with the subject of reducing the violence, to deal with 
the subject of maintenance, so we can, in fact, have a physical 
plant that merits what our students should have. Those three 
areas again I've got to do something about: violence, security, 
safety. I've got to do something about the academics, about the 
academic support, and we have got to do something about the 
teachers so that they have a drive to teach, want to come to 
work and teach, and have that kind of motivation that you and I 
had in our teachers back when we went to school.
    Senator Lieberman. I have actually used my time for this 
round?
    Dr. MacLaury. I would simply add, if I may, one point.
    Senator Lieberman. Please.
    Dr. MacLaury. As to General Becton's comments, I agree with 
all of them, but it's the management information systems that 
the schools have, or frankly do not have, that lead to our 
standing on quicksand every time we ask for numbers about 
finance, budget. We are building new systems as we speak, but 
in the area of personnel, we know how many checks are being 
written. We do not yet know where all employees are assigned 
and what duties and responsibilities they have. Similarly, with 
respect to student and school performance, I do not feel 
confident yet, as I speak with you, that we can track, as we 
must track, the students' performance and the schools' 
performance. So, in each of these areas we have plans in place 
to improve management information. It's a very dry old subject, 
but until we can get accountability, we do not know where we 
are.
    Senator Lieberman. I agree. Let me just indicate for the 
record that 32 percent number came from the District of 
Columbia Financial Responsibility Management Authority Report, 
``Children in Crisis,'' November 1996. It says that 32 percent 
of classroom teachers do not have required certifications.
    Thanks, Mr. Chairman.
    Senator Brownback. If I seem outraged and rough towards 
you, it is just because I am outraged and you are in front of 
me. But I hope you take it as a message from the Senate and as 
a message really from the Nation. I know you are both trying 
and working as hard as you can to do everything possible you 
can. We have to do more and we have to do better. So please 
take these, I guess, as constructive comments, as I am sure 
that you will.
    General Becton, you say that everyday you get a report of 
violence in the schools, level or incidences of violence. What 
are the numbers? How many incidences of violence are we having 
in the D.C. public schools daily?
    General Becton. I can submit that for the record. If I used 
the term ``everyday I receive the level of violence,'' I said I 
received incidences of what is happening in the last 24 hours. 
Violence is one of those things that is reflected.
    Senator Brownback. How many are you regularly hearing about 
in the D.C. schools on a daily basis roughly?
    General Becton. Well, let me give you an example. Yesterday 
I believe we had 11 incidents reported.
    Senator Brownback. Of violence yesterday?
    General Becton. No. That is incidents.
    Senator Brownback. OK.
    General Becton. To include violence, but also to include a 
stolen property, to include a drug related act, to include a 
stolen purse. We are talking about 157 schools. We are talking 
about 79,000 people plus another 10,000 employees. So those are 
the numbers and I receive a report every morning of these kinds 
of things, and I will be more than happy to provide to the 
Subcommittee.
    Senator Brownback. I would like to see those, but are you 
saying that 11 incidences classified as criminal activity occur 
on a daily basis?
    General Becton. There are allegations that something 
happened. They are not all criminal allegations. They are 
allegations of, could be allegations of a truant that got into 
a little trouble, later to be proven or disproven.
    Senator Brownback. How many allegations of criminal 
activity would you normally get daily in the D.C. public 
schools?
    General Becton. I am saying, Mr. Chairman----
    Senator Brownback. Stolen purses, guns.
    General Becton. I am saying I believe yesterday the number 
was 11.
    Senator Brownback. Is that a normal day?
    General Becton. I would say that is about average.
    Senator Brownback. And these are in a situation where you 
have unarmed children? The rest of the children are unarmed; is 
that correct?
    General Becton. I will read yesterday's figures, sir. I 
just got them passed to me. There were three allegations of 
concealed weapons, there were three fights, one truancy, four 
larcenies, and one burglary, it looks like.
    Senator Brownback. But the rest of the children are 
unarmed, but these incidences are taking place against some 
children in the D.C. public schools; is that correct?
    General Becton. That is correct, sir. Again, I point out we 
are talking about 78,000 or 79,000 children. We are talking 
about 10,000 employees. I can only relate that to a recent 
experience where I was the president of a university with 5,000 
students, and while we would not get this many, but we would 
get examples of those kinds of things happening, and certainly 
in the military, that number would be relatively small for a 
unit that had 80,000 soldiers.
    Senator Brownback. Adults?
    General Becton. Adults.
    Senator Brownback. But 80,000. What if you still had young 
children in the D.C. area?
    General Becton. Do I still?
    Senator Brownback. No. I understood you to say your 
children were graduated; is that correct?
    Senator Brownback. I have five grown children, 10 
grandchildren, and three great-grandchildren.
    Senator Brownback. Congratulations. I am still working up. 
I have got three little ones, but would you leave them in the 
D.C. public schools today with those sort of incidences? Your 
children?
    General Becton. Yes, sir.
    Senator Brownback. You would leave them there today?
    General Becton. I would because I know what we have in our 
schools. I know the excellence of our schools. I know the 
dedication of our teachers and principals. I am saying these 
are isolated incidents while they are repeated, but these go 
throughout the entire school system.
    Senator Brownback. But you both have commented about the 
current system as a failed system by test scores, by what is 
happening in violence. Dr. MacLaury, you say this is a failed 
system.
    Dr. MacLaury. Certainly. The Control Board instituted the 
emergency trustees. We take the words ``emergency trustees'' 
very seriously. There was, and still is an emergency. We have 3 
years as emergency trustees in which to try to put this system 
back in shape so that it can continue under an elected board of 
education.
    Senator Brownback. Let me follow up on that and I will let 
you finish that. But you say 3 years to put this system into 
place, and I appreciate, General Becton, you are saying you 
should be judged on June 30, 2000 as to whether you are 
successful. You need some time to transition, and I recognize 
that you do not change things overnight, particularly when they 
have atrophied or gone down to this distance. You do not change 
those overnight. But what about the children caught in that 
system today? Should they be relegated while you are trying to 
change the system? I applaud your efforts to change that 
system, but we have to change that system. Do you lock those 
children in that system while you are making the changes? Dr. 
MacLaury?
    Dr. MacLaury. Well, I do not think one locks anybody in any 
system. One should not. I understand the implication of your 
question, I believe, and we are very much in favor, as you 
know, of charter schools. We will come back to that, I am sure, 
in the questioning, if you wish to. Students do have choices 
within the system now as we speak, and there will be more 
choices when charter schools are, in fact, put in place. We 
have to fix this system as fast as we can, and I will be 
interested in your views as to what else we can and should do 
in terms of improving the system.
    I was simply going to say that the school closing effort 
that has been going on, and I might say, taking a great deal of 
our attention away from a lot of other things that we should be 
dealing with, is a necessary distraction. I have been out 
visiting all of the 16 schools nominated for closing. I have 
been surprised and impressed with the quality of the principals 
that I have been meeting in those schools. My only point is 
that, while it is perfectly understandable and appropriate to 
focus on what is going wrong and is bad about the D.C. public 
schools, it is still true that there are ``Eleanor Holmes 
Nortons'' who are graduating from the D.C. public schools. In 
addition, there are principals and teachers who are devoting 
their lives to the instruction of children, and children are 
learning as well as having great difficulty in some of the 
schools. We are going to do the best we can to fix our schools, 
but we should keep a balanced perspective.
    Senator Brownback. And I know you will do that, but when 
Eleanor Holmes Norton, who is a great product of the D.C. 
public school system, in front of this Subcommittee, she said 
that this is not the town she grew up in, and this is not her 
school system that she came through. You say that they are not 
required to be in this system, but they cannot get outside 
school choice within this system. Now some people with the 
financial wherewithal it appears to me voted with their feet.
    Dr. MacLaury. That is correct.
    Senator Brownback. And the President takes his daughter 
somewhere else and votes with their feet. Now do we relegate 
people who do not have the financial wherewithal to stay locked 
in a system that you have defined and stated has failed until 
we get it to a point that it is no longer a failed system for 3 
years?
    General Becton. Mr. Chairman, may I make a comment?
    Senator Brownback. Please.
    General Becton. Parts of the system are broken. That is 
acknowledged. Parts of the system are doing outstandingly well. 
We have estimated between 2,000 and 4,000 students who come 
into our school system from outside of the State, outside of 
the city limits, who by the way do not pay tuition, but come to 
our schools because there are good schools here. Not every 
school is broken. Not every student is suffering under any kind 
of thing we are talking about. And while I indicate outrage at 
11 incidents, I remind everyone that we've got 157 schools. We 
have a lot of good places where students can go and learn. We 
have parents. We've got support. We've got foundations. Every 
one of our schools has supporters from outside to include 
members of this body are providing assistance to our schools. I 
am very proud of what they are doing. I am proud of where we 
are as reflected in those reports.
    That is why we are doing something about it. You asked the 
question would I be willing to put my youngsters in? Yes, I 
would. And we are going to make sure that every other citizen 
can feel the same way about it. But the ones we have today we 
are going to try to help.
    Senator Brownback. But, General Becton, did you not just 
make the point right there that--and I appreciate the quality 
of schools that are working and that they are making a 
difference and they are a good difference for the students--if 
this is the case, the parents will also vote with their feet to 
go to those public schools that are working if they have the 
choice to do that in or out of the system? Will they not be 
able to track it themselves? The parents will make that 
judgment then for their children. You would leave your children 
and you would keep your children in there. There would be 
others from outside that would come in, but should not they be 
the ones making that judgment rather than us locking them into 
this system?
    General Becton. I do not believe we are locking them into 
the system, Mr. Chairman. I think that they----
    Senator Brownback. They do not have the financial 
wherewithal. They are locked into that system.
    Dr. MacLaury. But may I say that if, and it is not ``if,'' 
it is ``when,'' we establish charter schools, there will be per 
pupil allotments to the students who choose to go to those 
charter schools. There will be choice, and I favor that very 
much. It is a question of how quickly we can get that up and 
going.
    Senator Brownback. Senator Lieberman.
    Senator Lieberman. Thanks, Senator Brownback. One question 
on these closings. Members of Congress live in two places. I 
have my home where I live in Connecticut, but we are actually 
obviously in this town and so we read the papers and all. And 
this Subcommittee has this extra or personal involvement in the 
District. I have been reading about some of the school 
closings, and a rather eloquent plea in the Washington Post, I 
guess, over the weekend, from one of the parents writing about 
this Hearst Elementary School in upper Northwest. Here you have 
a school that looks like it is a success. It is one of those 
places, General, that I presume you would be comfortable 
sending your children or grandchildren, and did you say great-
grandchildren, too?
    But why was it closed? In other words, you got an 
integrated school. You have a fair number of kids coming in on 
your public school choice program from other sections to 
Hearst. So why close it? In other words, why not consider what 
appears to be academic success? I gather it is over into the 
90th percentile nationally in terms of academic standards, so 
this is one of your star schools, it appears. Why close it?
    Dr. MacLaury. If I may respond? There has been no decision 
yet by the trustees on which of the 16 schools proposed for 
closing will, in fact, be closed. We are close to that 
decision. We are getting additional information from the 
school's administration, as we speak, and when we get that 
information if we are satisfied, we will within the next week 
or two at the most be announcing the schools to be closed.
    What I think you should--I would suggest that you keep in 
mind, and I have been saying this to parents who have--and we 
have had three public hearings, and I have been going out to 
the schools and talking with local school restructuring teams. 
Please keep in mind that we are talking about closing 
buildings. We are not necessarily closing programs. Teachers 
and pupils can perform well in different physical settings. So 
we have to keep that in mind as we are talking about closing 
physical facilities. We are depriving the children of this 
District of wherewithal by keeping far more schools open and 
paying for them--the custodial services, the heating and the 
lighting. If that money could be saved and put into education, 
all of the students would be better off.
    Senator Lieberman. Yes. I, of course, understand it, and 
Members of Congress and the various enactments we have made 
about the D.C. school system have wanted you to be tough on 
closing schools, but it just seems to me that, and again you 
are on the front lines, but from what I have been reading about 
this particular school--and I am glad to hear it is not a final 
decision--it is true a building is just a building. On the 
other hand, sometimes you do create a positive learning 
atmosphere, a positive social atmosphere around a particular 
neighborhood, a particular school, and, if it is working, if it 
ain't broke, don't fix it, I guess is what I am saying.
    [Applause.]
    Senator Brownback. Please. I appreciate the audience's 
passion here because it is important, and I certainly have my 
own, but let us hold it down.
    Senator Lieberman. OK. Let me go on to the charter schools. 
This is my last area of questioning. Incidentally, Senator 
Coats and I are going to come back with our proposal for we are 
calling it a scholarship program. It is really a choice program 
for the thousand students. It is a drop in the bucket over a 5-
year period. It was supposed to go up to 11,000 scholarships. 
We just think this is--look, there are a lot of middle class 
parents. A lot of people who can afford--it is true, the worst 
does not exist at every school in the D.C. system, but there 
are a lot of schools that are so bad that it is clear that any 
parent who can afford it is taking their kids out, and a lot 
more parents who cannot afford it from everything we hear would 
like to take their kids out and liberate them and give them a 
decent education.
    So we are going to continue to push on that school choice 
program. Meantime we have adopted the charter school program. 
It has had a very rocky start here. Frankly, I felt, 
respectfully, General Becton, that your comments on it in your 
opening statement were almost defensive or not defensive but 
had more questioning to them that support or an attitude of 
trying to make this charter school program work. I hope I was 
wrong. If I am, I want to give you the opportunity to tell this 
Subcommittee now that your leadership, and Dr. MacLaury's, are 
committed to the charter school program, and you are going to 
aggressively implement the authority that we have given you to 
create some choice within a public school setting.
    General Becton. Yes, sir. I am delighted with the charter 
school concept. It should make public education better. I have 
submitted a request to the board of trustees to request the 
Congress to give me the authority to have State school 
responsibility for charter schools. I do not have that now.
    Senator Lieberman. Tell me what you mean.
    General Becton. Right now the charter school responsibility 
rests with the board of education. There is also another 
chartering agency within the city. I do not have the 
responsibility to ensure compliance, monitorship, certification 
or anything else.
    Senator Lieberman. So you want to focus the charter school 
implementation in your office?
    General Becton. I would like to have the responsibility 
like any other State has.
    Senator Lieberman. Yes. No, that is an important point. I 
think we ought to do everything we can to make sure that 
happens. I know there has been an overlapping jurisdiction, and 
it has been a problem.
    General Becton. But as far as encouraging the idea of 
charter schools, we've got a lot of people doing a lot of 
talking about it. We have talked with Smithsonian. We have 
talked with other folks. I talked yesterday with some folks 
about alternative schools for purposes of chartering, and I am 
convinced that we are doing the right thing.
    Senator Lieberman. Dr. MacLaury, do you have anything you 
want to add? I mean, look, you mentioned about standards 
before. You know that is part of the whole idea of the charter 
schools which have worked on here which is that you set the 
standards in the charter, and if the school does not meet their 
contractual obligation to educate the kids after the 3-, 4-, or 
5-year period of the contract, that is it for them. You know 
you should go to another charter.
    Dr. MacLaury. Except, Senator Lieberman, I believe that 
there should be high standards for the entire District, public 
schools and charter schools. Any charter school ought to be 
able to meet the high standards set for the District as a 
whole, and there ought to be the same kind of assessment test 
for public and charter schools. In fact, I believe that, 
written in the law, is a requirement that there be a 
standardized test that is given to all of the public schools in 
the District, including charter schools.
    Senator Lieberman. Absolutely.
    Dr. MacLaury. Right.
    Senator Lieberman. I mean that is the whole idea in my 
opinion of the charter schools. Set the highest standard, free 
the charter school of some of the bureaucratic rigmarole. Let 
the teachers or the parents or whoever is in charge, maybe a 
private business, run it the way they think is best to achieve 
the standards, and if they do not, cut them off, and hopefully 
in doing that you raise up the standards of the whole system.
    Final question because I know we have to go on. Directly, 
frankly, is the teachers union in the District of Columbia 
helping or hurting you in your effort to improve the public 
school system?
    General Becton. I believe they are helping us.
    Senator Lieberman. And how about the charter school 
approach? Are they supportive of that?
    General Becton. I think that the teachers union have been 
neutral on the subject of charter schools.
    Senator Lieberman. So you have not felt pressure from them 
in any way?
    General Becton. I have not.
    Senator Lieberman. Thanks to both of you.
    Senator Brownback. Gentlemen, thank you for engaging in the 
front-line battle for America's soul and for our children. I 
have thought for some time that the enemy that can destroy us 
is no longer external. It is internal and it is our culture, 
our own demise of family, our own difficulties in schools, so 
General Becton and Dr. MacLaury, I am glad you are engaged in 
that front-line battle. Thank you for freely and frankly 
discussing this with us and I apologize for some of the 
doggedness perhaps at times, but it is just such an important 
issue. You are the Nation's local school board. You are the 
Green Bay Packers for the local school district and people are 
watching. And we are going to be watching to make sure that 
this works. Thank you for joining us today.
    Dr. MacLaury. Thank you very much.
    General Becton. Thank you, sir.
    Senator Brownback. The next panel will be the Hon. Lamar 
Alexander, former U.S. Secretary of Education, former Governor 
of Tennessee, who has a great deal of educational experience, 
and also the Hon. Ed Koch, the former Mayor of New York City, 
and two people who have worked a great deal on the education 
issues. So, if we could have that panel join us.
    Senator Lieberman. Mr. Chairman, I just want to take a 
special moment to welcome Mayor Koch. I was about to say, and 
it is true that he has been not only a hero and an inspiration 
and a mentor but a friend, and in doing so I did not want to 
oblige him to take responsibility for all of my actions in 
public life, some of which, very few of which, we had 
disagreements on, but it is great to see Ed Koch, who is one of 
the most creative, bold, honest, direct thinkers around. So, 
anyway, I just wanted to say hello to my friend, and I bring 
not only my greetings, but those of my wife, my mother, and 
even my mother-in-law.
    Mr. Koch. Cannot do better than that.
    Senator Lieberman. Welcome, Governor Alexander, too, and 
thank him for all his leadership in this area.
    Senator Brownback. Thank you for waiting during the 
previous discussion, but I hope it was also illuminating to you 
as well about the problems we are confronting. I do not know if 
you have any agreement between who would go first or second on 
this? I have the panel listed down as Lamar Alexander as going 
first so if that is OK, Governor, or Secretary? Do either of 
you have scheduling problems?
    Mr. Alexander. I do not.
    Mr. Koch. I have none.
    Mr. Alexander. OK. I will go first.
    Senator Brownback. So we will put you on, and thank you for 
joining us.

TESTIMONY OF THE HON. LAMAR ALEXANDER,\1\ FORMER U.S. SECRETARY 
                          OF EDUCATION

    Mr. Alexander. Thank you very much, Mr. Chairman, Senator. 
Good to see you both. And Ed, it is a privilege to be with you, 
and I am glad I had a chance to hear the discussion before. I 
admire General Becton's integrity and his service and his 
willingness to do this. And I have submitted a document for 
you, which I would like to try to summarize, and I will keep it 
reasonably brief so that we can have a chance to focus on 
whatever the senators would like to talk about.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Alexander appears in the Appendix 
on page 83.
---------------------------------------------------------------------------
    I know the Subcommittee has before it a broad range of 
issues, pensions, financial management, prisons, but what I 
would like to suggest today is that the clearest and easiest 
way to renew confidence in the District of Columbia and restore 
the luster of the District of Columbia is to set out on a 
mission to give every child of every family in the District the 
opportunity to attend one of the best schools in the world. 
That would be the mission for the District that would make the 
most difference in the District's future, and I want to talk 
specifically this morning about the steps that I believe it 
would take to cause that to happen.
    In fact, even though the gentlemen who were here before 
have 3 years for their mission, I believe that it would be 
fairly easy to achieve the goal of creating the best schools in 
the world in the District of Columbia within a relatively short 
period of time, perhaps 5 to 10 years, which for a job that big 
is a pretty short period of time. I was reminded of both how 
important this is and how possible it is about 10 days ago when 
I was here in the District in the afternoon and the evening at 
a celebration that included hundreds of District citizens, 
parents, teachers, community leaders, all sorts of people from 
the District of Columbia. It was the 10th anniversary of the 
Best Friends program, which Elaine Bennett and Alma Powell and 
others run. It is a program to encourage young girls to abstain 
from sex and alcohol and drugs and to encourage self-respect. 
It is spreading around the country, and it all started right 
here at Amidon School 10 years ago. I had the privilege of 
escorting a young woman, a senior in high school here, who has 
won a scholarship to Spellman College. I remembered meeting her 
father 5 years ago when he was president of the PTA at Amidon 
School, and it was just one more reminder that there are plenty 
of parents and teachers and citizens and leaders in the 
District of Columbia who have the capacity. In fact, they have 
more capacity than the citizens in most communities to create 
the best schools in the world. So there is no reason that it 
cannot start here.
    And I think, too, of all the tremendous institutions that 
are here. I mean the museums, the talented people. I mean there 
is not a concentration of more talented, creative, responsible, 
well educated people with money anywhere in the world than 
there is in the District of Columbia. And then I look at the 
figures, and I see that the District is second or third in the 
amount of money it spends per student on education, and that 
you are spending about $7,000 or $8,000 per student, and I 
think about what that could buy in terms of an educational 
opportunity. So that leads me to specifically what it would 
take to spend that money in these circumstances to help create 
the best schools in the world for the District children.
    And they are these things: (1) choice; (2) freedom; (3) 
excellence; and (4), accountability.
    Now, choice, what I mean by that is this. So that no child 
is made to go to a bad public school and so that every child 
has the opportunity to go to a great public school. Every 
single District family should be permitted to choose the 
school, public or private, that the child attends. Now in this 
case as well as in all the other cases, the proposals to 
implement what I am talking about are either already in law or 
have been recommended by the President or by the Congress. 
Speaker Gingrich proposed a bill last year that would give 
lower income families more of the same opportunities to attend 
District schools that wealthy families already have. To ensure 
that choice, Speaker Gingrich's bill ought to be enacted. That 
is the first thing.
    The second thing is freedom. So that the families have the 
maximum choices of schools to attend, every District school 
should be a chartered school. Now that might take 5 or 10 
years, but every single one ought to be. Diane Ravitch defines 
a charter school as simply to think of a public school district 
with one school in it that has the freedom to do what it wishes 
to do to meet the needs of children, and if it does it, it 
succeeds, and if it does not, its contract is revoked. That is 
the recipe for every single school.
    The good news is that 25 States have charter school laws, 
and the District law is perhaps the best. Arizona's and the 
District's are the best. So all the authority is already in 
place. And what occurs to me is why does the National 
Geographic not have a charter school? Why does the Learning 
Channel not have a charter school? Why does the Smithsonian 
not? Why does the National Education Association or the 
American Federation of Teachers. Now, think of what $8,000 per 
child could buy at a school operated by any of those 
institutions. Unleash that creativity, let it go. Now not all 
those schools will work. I mean the Marcus Garvey School seems 
to prove that already, but that is no reason to stop. Revoke 
its charter. I mean the job of the school board should stop 
being to try to invent the school and make everybody go to a 
specific school. The school board should step back and have as 
its mission to create an environment in which everybody else 
creates the schools.
    And the school board's job is to make sure that the schools 
are safe, that children are learning to a high standard, and 
that they meet some common sense standard of reasonableness. So 
that the young Nazi League, or some other nut group is not 
running a school. That is the school board's job and the school 
board can do that. So the District already has that authority, 
and it should exercise it.
    The third thing is excellence. On this score, President 
Clinton is right. President Clinton has recommended that the 
math and reading tests, which are already well established by 
the Nation's Report Card, be made available to the District 
Board and to all school boards to be used to see if, for 
example, fourth graders are learning what they need to know 
about math. That should be done, and the Congress should 
approve President Clinton's proposal for tests with 
consequences.
    And finally accountability. Now this is the fourth step 
that the President has not recommended, and I doubt I will ever 
hear him recommend, but which the District ought to take and 
which it has the power to take. Choices will not be real, 
charter schools will not be real, children will not learn, 
until we change the attitude toward teachers and principals. We 
should expect principals to lead and teachers to teach, and we 
should measure their results and reward them and dismiss them 
based upon their ability. So what the District should do under 
its charter school authority is end tenure for teachers and 
begin to pay teachers and principals more upon whether the 
children in the school are learning.
    What this means is that some District teachers will be paid 
as much as $100,000 a year and some will be invited to have a 
new job somewhere. But until we do that, until we change the 
way we pay teachers and principals and permit principals to 
have the opportunity to organize faculties around the idea that 
children will learn, nothing will happen. We all know families 
are the first teachers, that schools are not substitutes for 
families, but if there is no positive result as a result of a 
child going to a school, the school does not need to exist. We 
do not need to be spending $8,000 per student. We should reward 
them on that basis.
    So the recipe for creating new confidence in the District 
is to help the District over the next 5 to 10 years create the 
best schools in the world for its children, to be the national 
model, to be the shining city. If it were the shining city in 
that respect, it would be the single-most important thing that 
could happen here. That is the recipe. The ingredients are all 
sitting there on the table waiting for somebody to start 
cooking. (1) pass Speaker Gingrich's bill about choice; (2) 
exercise the charter school law that the District already has; 
(3) pass President Clinton's bill that would make tests 
available to the local school board; and (4) end teacher tenure 
and start paying teachers more, a lot more, based upon their 
ability and success of their students. Thank you.
    Senator Brownback. Thank you, Governor. Those are some very 
interesting ideas I look forward to pursuing further. Mayor 
Koch, I went to school in Manhattan, Kansas. We called it the 
``Little Apple,'' but watched you closely and from afar and was 
a great admirer for a long period of time. We are delighted to 
have you here at the Subcommittee.

TESTIMONY OF THE HON. ED KOCH,\1\ FORMER MAYOR OF NEW YORK CITY

    Mr. Koch. OK. Mr. Chairman, I was very pleased, indeed 
privileged, when I received a letter of request that I come and 
give testimony.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Koch appears in the Appendix on 
page 86.
---------------------------------------------------------------------------
    I am not an educator. I am not a parent, and yet I think I 
do have some insights because I served as mayor of a city that 
has over a million children in the school system, and it is 
going up now 20,000 a year, and it has a parochial school 
system of about 175,000 and a private school system of about 
another 175,000. And I think I have learned something over the 
years, and I would like to just express it.
    First, I sat through all of the testimony that was given 
earlier, and I believe because this subject is so important 
that we have to be totally honest, and it is not intended to be 
confrontational or adversarial, but I was amazed when the 
General said he would not hesitate to send his kids to the 
schools. I do not believe it for one minute, and the reason I 
do not believe it is that parents are not supposed to in the 
cause of any philosophy sacrifice their children. No one can 
expect them to do that. And if you are able to send your child, 
and I assume the General is, financially to a private or 
parochial school, you are going to do it in most cases.
    Now why should you do it? And I am for public schools. But 
I am for them as one of several choices. I am for vouchers. I 
was for tuition tax credits in 1966 when if you were a liberal, 
which I am and was, and you were for tuition tax credits, you 
had to worry about getting elected in a district that 
ordinarily elects liberals. I mean they just hated the thought, 
although most of them sent their kids to private or parochial 
school. But the fact is I was then and am now a supporter of 
the equivalent, which would be vouchers. Why? Well, in the 
archdiocese, which probably has about 200,000, or a little bit 
less, students in Manhattan, Staten Island, the Bronx, a couple 
other places upstate, you have a graduation rate in high school 
in the first 4 years, 98 percent, and you have 90 percent or 
better going on to college.
    Now, in our public school, we have a graduation rate in the 
first 4 years of 48 percent. I want to tell you I believe the 
48 percent for public schools in central cities is high so it 
is not that we are doing badly if you compare us with other 
central cities. But I believe that parents ought to be given 
the option for a reason which is often discussed, but I think 
is the central reason, competition. I mean if public schools 
know that they are going to lose those dollars that are 
allocated for the classroom for that particular job, then they 
are going to compete for it.
    I must say we have a problem, as I guess D.C. does, not 
only in the sexuality that you concentrated on earlier, but 
rapes that take place, and even more in terms of numbers of 
pregnancies. Nobody talked about that. If they are in New York, 
they are here. And the fact is that something has to be done 
about that. I spoke with a good friend of mine, who had been a 
commissioner in my administration, who happens to be very 
religious and has eight kids, and he sends them to a parochial 
school, Jewish, and we were talking 1 day about pregnancy in 
our school system, which the number was rather high at the 
time. I do not remember the exact number. It was rather high. 
They were wondering whether to put the kids in one school or to 
let them stay in the existing schools, and I said to Abe 
Biederman, who was my Commissioner of Taxation, Finance and 
also Housing Commissioner on another occasion, I said, Abe, do 
they have pregnant kids in the parochial schools, Jewish 
parochial schools? He said there was one case, he said, over 
the years, one case. I said what did they do? He said they 
closed the school.
    Now obviously you cannot close the public schools nor 
should you, but it shows the nature of the response to this. 
Now we accept it. What is so terrible? I mean and I do not 
blame the kids primarily. I do hold them to an obligation, but 
I mean our society has regrettably moved in that area. The 
numbers of children born out of wedlock are astronomical so why 
should the school system be so different? But something has got 
to be done about that.
    Now I spoke at Al Shanker's eulogy about 2 weeks ago. He 
was a great educator and, as you know, head of the teachers 
union in New York and then later nationally, and I said to this 
crowd of people, several thousand who knew him very well, I 
said I want you to know that 30 years ago, when I was a city 
councilman, actually 1967, I had a conversation with Al 
Shanker--I remember it so vividly--and he said to me--at that 
time we had a million kids in our school system, too--he said 5 
percent of the students in our school system have to be removed 
from the regular classes because they are violent or disruptive 
and making it impossible for the other kids to learn. Now that 
is 50,000 students. Obviously, it is never going to be that 
high.
    And then I said to this audience present for Al Shanker's 
eulogy, I said it took 30 years for the public school system to 
begin to address the problem, and they now have adopted some 
regulations that if you bring guns to school, they are going to 
expel you. It seems to me it should have been done a long time 
ago, but that is the new rule. You will be expelled permanently 
from the school system, and the chancellor should get credit 
for that.
    There is a problem in dealing with the special ed kids. You 
say that is the nature of their problem: disruption. You just 
cannot expel them, but you have to do something about it. I am 
not an educator. I am not going to tell you what they can do in 
all these cases, but I have in my text laid out 11 ideas. I am 
just going to mention them, and then if you are interested in 
any of them, I am happy to give you my own feelings.
    The school vouchers, I am for them. Do not tell me it is 
unconstitutional. I do not believe it is. And if it is, the 
Supreme Court will tell us that and not this Supreme Court. 
This Supreme Court is going to find it constitutional. The fact 
is that we send Head Start kids to parochial schools and the 
government pays for it. Nobody seems to find that 
unconstitutional nor should they. The fact is that I could not 
have gone to law school if we did not have the GI bill and many 
other soldiers went on to parochial colleges, that is to say 
religious schools. That was not unconstitutional. So let us try 
it. I am sure we will like it, and I believe it will be held 
constitutional
    The charter schools. I find it funny when people talk about 
charter schools because I am for charter schools. What is a 
charter school? A charter school is a successful public school. 
That is the way I look at it. And why is it successful? Because 
you have removed those problems that you think are making the 
public schools unsuccessful. So why should you not do it for 
all the systems?
    And it was always when I was an executive or even a Member 
of the Congress, and you had a problem, people would say, well, 
are you centralized? And if you said yes, then they would say, 
oh, you got to decentralize. And if you were decentralized, 
they would say, oh, you got to centralize, and instead of 
finding real solutions, it is just made up. Made up and 
grasping for straws.
    Now, I also believe you have to bring in role models to the 
schools. So I once went out to the board of education at their 
building and I asked them to bring in their top 25 people, and 
I said let us have a little conversation. And they told me all 
their problems, and then I said I have an idea. The idea is 
that everyone of us and as many other people as I can bring in 
should teach in the school system twice a month. Just bring us 
in so the kids will see role models and maybe there will be 
something different. And the then acting chancellor, who was a 
very able man, he said to me, oh, Mayor, we can't do that. I 
said why cannot we do that? He said if you bring parents and 
others into the school system, they will get so disgusted at 
what they see, it will get even worse.
    I thought to myself, this is unbearable, and I said you may 
not want to teach, but I will. And in those days if you were 
the mayor, you could get your way on a couple of little things. 
So I said I want a class. And they gave me a class, a seventh 
grade class, and I also brought in 400 people who were doctors, 
lawyers, engineers, architects, and commissioners in the 
government, to give 2 days a month and I did it, and I did it 
for two semesters, and I did one in Bedford-Stuyvesant, which 
is a black area, and the second semester I did in the South 
Bronx, which is a Hispanic area. And everybody has their own 
quirks. I like to think that I certainly understand Standard 
English, and I think I speak it. But it so jars on me to hear 
the word ``ax'' and I know you cannot get a job--I mean would I 
hire somebody to answer my telephone or be my secretary who 
said ``ax''? I would not. And it is not Black English. I mean 
it is central city English. Whites and Hispanics and Blacks, 
they all say it. Why? It is beyond me, but they do.
    And so when I went into this classroom, I said, kids, I am 
going to write a word on the board. I want you to say the word. 
And I wrote the word ``A-S-K.'' And I went to each and every 
child in that room--I think there were 25 or so--said ``ax.'' 
And I worked with them for the whole semester, and at the end 
of the semester when I had my own little graduation class at 
Gracie Mansion, where the mayor lives, and I brought in their 
parents, I said, kids, how do you say the word ``A-S-K''? And 
every one of them said ``ask.''
    And then in the second semester when I went to the Bronx, I 
said to the kids there is a word. Do you know the word that 
will mark you as coming from the ghetto where you will not be 
able to get a decent job if you cannot say it correctly? Do you 
know that word? I did not think they would. And the class 
screamed out, yes, ``ask.'' And I said how in the world do you 
know that word, and they said we heard all about you. 
[Laughter.]
    Now I was proud of that, and I think, small potatoes maybe, 
but important nevertheless, and what interested me or so amused 
me, The New York Times, and I love The New York Times, and I 
could not spend a day without The New York Times.
    Senator Brownback. Now you are stretching my credibility, 
Mayor, if you are saying that.
    Mr. Koch. No. I mean there is no paper that is comparable. 
But they ran an editorial saying why is the mayor so interested 
in such an unimportant matter as ``ax/ask''? There are so many 
other important matters. So I wrote them a letter. I said can 
you imagine what our recollections of Jack Kennedy would be if 
he had started his inaugural speech ``Ax not what your country 
can do for you. Ax what you can do for your country?'' Well, 
when I sent them the letter, they would not print it. They said 
you have to take that paragraph out. And I said not me. I did 
not have to because I write books. So I put it in my book.
    Now, some of the other ideas. School uniforms. The same 
thing happened. I said why can't we have school uniforms. Try 
them. They have them in the parochial schools. I think it makes 
a difference. So I called up a couple of the haute couturiers. 
And they said, no, we are not going to do that. We have spent 
our charitable expenses. So I called up Moe Ginsburg. Do you 
know the name Moe Ginsburg? He is a discount clothier. And I 
said, Moe, I need uniforms, dresses for the little girls, and 
blue jacket blazers for the little boys, would you do it? He 
said of course. It cost him $25,000 and he equipped the two 
schools. It was wonderful.
    Now I think people understand. You have to give people a 
sense of pride. Aside from the fact it may end the robberies of 
sneakers and gold chains, etc., but just a sense of pride.
    And then I initiated a summer school program. For 7 weeks, 
the city of New York paid the tuition and the bed and board for 
students at the most prestigious private schools in New York 
for 7 weeks and outside of New York as well. Then we tracked 
them, and we found that just that experience, 7 weeks in the 
summer, and we took people across-the-board. It was not just 
the better students. It was concentration on the lower 
scholastic student that we concentrated on. And we found that 
they did better just having that experience.
    And then I once proposed to Sandy Feldman, who is currently 
the union leader, a great union leader. She is a personal 
friend of mine. She was at dinner at my home not very long ago. 
I say that because what I am going to say now might be 
considered critical or criticism. I said to her you know what I 
think we should do? I think we should have teacher bonuses. You 
say to the teacher we are giving you a class that is not 
reading at grade level. If you bring up the whole class to 
grade level, we are going to give you a $10,000 bonus, one 
time. We will give you a new goal if you want to next year. But 
that is just a one-time bonus if you accomplish it, and if you 
only bring up half the class, we will give you $5,000.
    She said no, what we want to do--we are interested in your 
bonus proposal. What we want to do is give every teacher the 
$10,000 and not because they accomplish a goal but simply 
because they are teaching. I said, Sandy, that is not a bonus. 
That is a salary increase. That is not what I am talking about, 
and we could not do it, because you could not unilaterally 
because of teacher contracts do what I thought would be very 
helpful.
    I think there ought to be student rewards. Now maybe it is 
as simple as saying at the end of the semester, look, every 
student that accomplishes these goals, we are going to give you 
skates or skis or whatever it is that makes sense. People in a 
capitalist society, which is what we are in, go ask those CEOs 
of corporations whether they do a little better because of the 
stock options that they have in the event that the stock goes 
up. I think they do. And I think students might. Let us try it.
    And then I do not claim that all these ideas are mine, but 
some of them are. And I push some of those on other people 
like, for example, forging ties between the major corporations 
and the schools. Not enough has been done with that, and it 
does not have to simply be a charter school. It can be just 
bring the corporation in to help and saying we will give you 
summer jobs if you reach a certain average. We will give you 
permanent jobs if you graduate in a timely way and with a good 
average, and similarly I brought in the private secondary 
schools, the private schools in a linkage with a public school 
in their area, sometimes even to exchange teachers, not often, 
but regrettably I do not think it is going on now.
    And then special education reform. I proposed to our last 
chancellor, the one just before the one that we have currently, 
Chancellor Cortines, and I liked him. I liked Rudy Crew as 
well. I think they both did a terrific job. Special education, 
I think 13 percent of our students are in special education. It 
cost $18,000 or more for each child in special education, and 
rarely if ever do they get out of special education. They are 
there forever. And I said what we should do is--excluding the 
profoundly mentally and physically disabled, and you cannot ask 
them to do what I am going to suggest now, but the others--put 
them into a mainstream classroom with back-up teachers in a 
homeroom that they can repair and retire to if they become 
overwhelmed and see if they sink or swim.
    And many will swim, you can be sure of it. And those that 
do not, at the end of the semester they will go back to special 
education. And 2 years later, you will give them another chance 
to do it. And Cortines thought it was a terrific idea, and, the 
school system, like the gods, work exceedingly slow, and they 
are still considering this proposal. But I am told that they 
like it. Well, that is a good sign.
    Now, finally, two finals I should say, one is English 
immersion as opposed to bilingualism. Bilingualism as a crutch, 
terrific. Bilingualism as placing languages on the same par, 
ridiculous. It is terrific if you can speak two or three 
languages, you are going to get a better job, but if you can 
not speak English well, you are not going to get a first-rate 
job, and it is our job to teach you. Well, I believe that many 
of the people who support the continuation of bilingualism as 
it currently is now do it because it is a job program. You have 
to have the bilingual teachers, and, second, it is a cultural 
program. You know we are proud of our culture, and you should 
be. But if you want to get kids up and running, immerse them in 
English. That does not mean you cannot help them with the 
crutch of a bilingual teacher available, but immerse them in 
English. Children learn so much easier. Look at all the kids 
and how they handle computers. I can not handle a computer. 
Thank God I have a secretary who can.
    But children can. My 3-year old niece is on a computer. I 
mean they are doing it because that is the way children learn, 
quickly, given the chance.
    And then finally what I think that D.C. should do, you can 
make this happen, and someone said it before, perhaps you did, 
and that is D.C. should become the area that the rest of the 
country looks at because you can impose your will. I mean the 
D.C. Government does not have the money, and you can say you 
want us, you want the money to do it, this is what we want, and 
they are not going to refuse you. You can do anything, and 
obviously you should be responsible. I believe that you should 
create a national academy in D.C. beginning at high school and 
through the university that would attract students, perhaps 
only in D.C., but maybe from around the country, which would be 
my preference, whose tuition would be paid for from the 
beginning to the very end and that you would push them in the 
areas that the country needs: science and math. That you would 
do for the United States what other countries do. I mean there 
are comparable schools in France, I know, and Germany I 
believe, that out of those schools will grow youngsters who 
will someday be the best and the brightest and hopefully many 
of them will be in the halls of Congress. I will stop there. 
Thank you.
    Senator Brownback. That was an excellent presentation by 
both of you, very illuminating and enlightening and enjoyable 
as well. I am just struck. What both of you are presenting 
there is not all that much different. I mean each of you kind 
of go at it from a different angle. But they seem to make so 
much sense to me. I mean if you are just kind of setting this 
down on a piece of paper and you are trying to do something 
that is right, these just seem to make sense in the context of 
a nation like the United States, a free, individualistic, 
entrepreneurial, capitalistic society.
    And you are identifying items like competition and rewards 
and bonuses and choice. I mean that is kind of what I always 
thought we were about as a Nation. So why has this not happened 
to date and what can we do now with the situation that we have 
to cause it to happen. And looking back, why have we not done 
these things, and what is different now or what can we learn 
from past mistakes that we can cause some of these, what I 
think, are very sensible in our type of system of governance 
and Nation cause to happen in the future? Governor?
    Mr. Alexander. Well, Mr. Chairman, I think the answer to 
that is, first, most people do not believe we need it. See, 
that is the first problem. If you go out around the country and 
say not one State has a school system that meets the needs of 
its children, nobody really believes that about their schools. 
In the first place, they think of their public schools as a 
place that is revered as anything except for their church or 
synagogue. I mean this is the place you not only learn reading, 
writing and arithmetic. This is the place you learn what it 
means to be an American and then you go home and teach your 
parents.
    So any criticism of that or the teacher, who is the closest 
thing to a Samaritan in most cases, I mean these are your 
heroes and your places of honor, and you do not go around 
criticizing them. Also the schools that we need are much 
different than the schools that we had, you have to learn a lot 
more. Today we need schools that are open from 6 a.m. to 7 p.m. 
all year to fit the needs of working families, not so that 
people go to them all the time, but just so they are open like 
grocery stores. You go to work, you know both parents are 
working, which most are. You drop your kids off when you go, 
and you pick them up when you come home.
    Well, my grandfather went to school few months a year a few 
hours a day, to the fourth grade. That was all he needed. That 
was the way that family worked. Today families work 
differently. So the first problem is people do not see the need 
for it, and when I go out and start talking about choice, 
charter schools, people do not even know what I am talking 
about. Choice of what? I mean here is my school. What is a 
charter school? They do not understand what I am talking about. 
And high standards? What do you mean our kids are not learning? 
They are learning over here. There might be someplace maybe in 
this big city or that big city where they are not learning, but 
certainly not here.
    The fact is most American kids are not learning what they 
need to know. The fact is in terms of choice, I used to say 
back in the 1980's that for law-abiding citizens the three 
greatest infringements on personal liberty in America were the 
military draft, land condemnation and pupil assignment. Now 
think about that. Now the military draft is gone. We now have a 
volunteer army. We have land condemnation and probably always 
will. And why we have a system where we tell people where they 
must go to school in a country where you do not say you have to 
live in Manhattan instead of Nashville or drive a Ford instead 
of a Chevrolet or go the Yeshiva instead of Vanderbilt or marry 
this person or that person or take this job instead of that 
one, how in the world we ever ended up with our system, I do 
not know, but the main problem is people do not believe we need 
it.
    Second problem is that there are a lot of forces of 
inertia. I mean just to take one example that I mentioned. It 
is time to end tenure. There is no need teachers should have a 
life-time job. It is time to start. I mean the mayor talked 
about paying teachers more for teaching well. Al Shanker, to 
his great credit, came to Tennessee in 1983 and supported my 
effort to pay teachers more for teaching well. I was willing to 
raise taxes, which Republicans do not do, to give the best 
teachers a 70 percent increase if we could pay them more for 
teaching well, and the teachers union killed it. Shanker was 
for it. The NEA killed it. We got it the next year because I 
devoted 70 percent of my time to it as governor and threatened 
to veto every teacher's pay raise as long as I was governor 
until we had some pay for performance, and so we got the only 
program still today in the country that pays some teachers more 
for teaching well and it is sort of the Model T, but in the 
District or in Tennessee or in New York City, we should end 
tenure, start paying teachers based upon their teaching ability 
and the success of their students, and we do not do it 
anywhere. So we do not see the need for it, there is a lot of 
inertia in the professional system against what we are doing. 
District is the best chance we have to break out and do things 
in the way that they obviously ought to be done and I agree 
with the mayor. You can require it.
    Senator Brownback. Because I would disagree with your first 
statement as far as the District of Columbia that the parents 
do not see that they need it. I think in the District of 
Columbia, they do see that they need to have the choice.
    Mr. Alexander. Well, some do. I mean it is pretty 
pathetic--this is a national embarrassment. Eighty percent of 
the kids here, 80 percent, do not meet a basic standard on 
academic learning, and 80 percent is not good enough. I mean 
basic is not good enough, 80 percent or below basic.
    Mr. Koch. Yes, I think so. In every central city you have 
the problems that we are talking about at this moment. D.C. is 
not alone. I do not know whether it is the worst or in the 
middle, but it is not alone. And that is why it is so critical. 
If you can find the answer here, there are cities all over this 
country that are waiting. Now why are responsible proposals not 
picked up and why do they not run with them, which was your 
basic question? It is a turf battle. I mean you talk to people 
who are in education. They probably would say to me what the 
hell do you know? You are not an educator. And it is true. I am 
not, but I have common sense. And I do not have my feet in 
cement defending what went on and maybe at one time was OK but 
is not OK anymore. And so they all become defensive and it is 
not my fault. I mean I am the principal. I do not have enough 
authority. I am the teacher. They are beating me up and nobody 
is doing anything.
    The first thing that I did when I was mayor at the 
suggestion of my corporation counsel was to say every case 
where a teacher has been assaulted by a student I want to 
prosecute that student in the family court, but we are not 
going to do what they did before, which is to say, OK, you have 
to sit in the classroom for a week or something like that, I 
mean some stupid non-inhibiting punishment. You commit a 
criminal act, we are going to pursue you criminally, taking 
into consideration your age, and that is being done now. And I 
think it is important.
    Senator Brownback. Senator Lieberman.
    Senator Lieberman. Thanks, Senator Brownback. Thanks to 
both of you. Your testimony was great, it was a breath of fresh 
air, and full of very practical ideas. I mean the great thing 
about the two of you is that, not to diminish those whose ideas 
are academic or theoretical, but yours come from the arena--
governor and mayor. We ought to put you together as a dynamic 
duo and send you around to every school system in America. 
Honestly, you have wonderful thoughts here.
    I thought, Lamar, Governor, that your idea here about the 
riches, the human resources that are in Washington and are not 
being used was a very striking idea. I mean the National 
Geographic, the Smithsonian, the Learning Channel, it is all 
here and part of what you are saying by those examples is the 
extent to which a lot of the great strengths of the District 
and probably most cities around America have given up on the 
public school system. Part of it is because they have been so 
bad. They have taken their kids out. We have to get them back, 
and this is a way to get them back.
    Ed, I thought you said so many things that struck me. The 
whole idea of the pregnancies, when you said we accepted it. 
Well, what happens when you begin to accept teenage pregnancies 
is that tragically you end up in a situation where 10-year-old 
kids left alone in a school room are engage din oral sex and 
the princial----
    Mr. Koch. Senator Moynihan's statement established defining 
deviancy down, accepting it.
    Senator Lieberman. That is right. Exactly. Now maybe this 
has gone so far, we are going to all stand up and say 
outrageous, we cannot let this happen. We are going to push it 
back. The idea of rewards, bonuses for teachers, rewards for 
kids, I do not know. To use a little of my own bilingual 
experience, this has a lot of common sense to it.
    Dr. Jim Comer, who is a child psychiatrist at Yale, has a 
program they put into effect in the school system in New Haven, 
a few of the schools, and it is now called the Comer school 
approach, but part of it is to do what a lot of kids have had 
the good fortune to have from their parents, first, convince 
the kids that they are able, that they have some ability; 
second, set some goals; and third, when they reach the goals 
reward them. And that is exactly what you are saying.
    Let me ask you one question, which is a favorite interest 
of mine. You talked about the extraordinary record of the 
parochial school systems in New York, largely Catholic--it 
happens in New York some are also Jewish, and around the 
country a lot are Protestant parochial schools. From your 
experience and, of course, one of the allegations, and maybe 
you want to answer it, that the opponents of choice give is, 
well, they are skimming off the top, they are taking the best 
kids.
    Mr. Koch. Not true.
    Senator Lieberman. But answer that, and then tell me why if 
they are not skimming off the top, they are doing so much 
better than the public schools are. What do we have to learn?
    Mr. Koch. They are not skimming off the top, and, in fact, 
when the charge is made, well, they can expel students. So I 
inquired how many students do they expel? And in each of the 
last several years, they could not find more than half a dozen 
cases in any 1 year, half a dozen, and let me say this, there 
is no question in my mind if you provided vouchers and the 
religious schools were eligible, they would give up the right 
of expulsion if you wanted them to. I do not think you should 
because there should be places where expelled kids go, a 
special expulsion academy, but not to be permitted to disrupt 
the other kids.
    Senator Lieberman. Right.
    Mr. Koch. Now why do they succeed? Because they are held to 
the high standards. Now you should understand that in the 
archdiocese, for example, Catholic, 65 percent or more of its 
students are not Catholic.
    Senator Lieberman. Right.
    Mr. Koch. And an equal number, in excess of 65 percent, are 
Black or Protestant.
    Senator Lieberman. Right.
    Mr. Koch. Overwhelmingly. And they all do well. The school 
system is overwhelming now in the parochial schools, with their 
high graduation rate minority. It's the parents. That is the 
last thing.
    Senator Lieberman. You sent to us Bishop Ed Egan, who is 
now the bishop of Bridgeport, your friend.
    Mr. Koch. He is very good.
    Senator Lieberman. And he has a high school there that 
graduates over 90 percent.
    Mr. Koch. Yes, he is very good.
    Senator Lieberman. And poor kids. And I said what about the 
skimming, Bishop? He said I will tell you about skimming. When 
I came and took over this school system, the kids were 
physically in such bad shape, that I opened the school-based 
health clinic. So do not tell me these kids are coming in from 
middle-class families. They are not. But the kids still do very 
well.
    Mr. Koch. Right.
    Mr. Alexander. Senator, Ed is right. The research shows 
that the single biggest difference between what the parochial 
schools do in the inner city and what the public schools do is 
they expect every student to learn to a high academic standard. 
In other words, they teach them to a high standard and expect 
them to learn and the result is they do.
    Mr. Koch. Right.
    Mr. Alexander. Now they also have these ingredients I 
mentioned. I mean parents choose the school first. Second, they 
let the teachers have the freedom to organize the school 
without a lot of bureaucracy.
    Senator Lieberman. Right.
    Mr. Alexander. They have high standards, which we just 
mentioned, and they could, if they chose, pay teachers more for 
teaching well. So they have those elements. Same elements that 
create excellence in our colleges. I mean the mayor mentioned 
Head Start. The principles we are talking about here for our 
elementary and secondary schools are not something from the 
moon. And they help create a system that has the best colleges 
in the world and are based upon those principles of choice, 
freedom, excellence, and accountability. And we are just 
borrowing the same thing for other academic institutions.
    Senator Lieberman. What about the role of the teachers 
unions? I mean I was upset--time is running out--but when the 
General indicated that almost as if it was, well, indicated 
that the teachers union in Washington is neutral on charter 
schools as if that was a good thing. I mean that should not be. 
How can we engage? Al Shanker really took the AFT to a point 
where they became part of the solution instead of part of the 
problem. Do you finally have any counsel on that, governor, as 
to how we can do that? We ought to be working together on this, 
not in opposition.
    Mr. Alexander. Yes, I have a suggestion for you. You know 
you hate to just start up and say it's the teachers unions' 
fault, but often it is. And if you are in Tennessee and you are 
proposing paying teachers more for teaching well, and in the 
end there is only one outfit that is killing it, and it was the 
National Education Association. If you are in Massachusetts, 
and you are trying to increase the number of charter schools 
from 25 to a larger number, and you go down to the back room of 
the Legislative Committee, it is likely to be the teachers 
union opposing it. Now, I have a suggestion for you for the 
District. I think we should always give the teachers union an 
opportunity to be helpful.
    For example, Shanker came to Tennessee and did support the 
master teacher program I proposed. So give them a chance. But 
we often put superintendents in charge of school districts as 
if that is going to change everything. And then we do not give 
them any authority at all. Here you have a General who 
everybody respects and he actually has some authority. So I 
would suggest that you pass Gingrich's bill, see if the 
teachers union supports that. I would suggest that you make 
every school a charter school; see if the teachers union 
supports that.
    I would suggest that you adopt the President's proposal 
about standards. See if they support that. And I would suggest 
that you end tenure so that principals can organize their 
school and see if they support that. I would invite the General 
back once a month for a couple of hours, not to interfere with 
his day-to-day operations, and let him tell you how he is doing 
on those four projects and whether the teachers union is 
helping him or hurting him because by putting it out in public, 
you will literally be helping to give him the authority that he 
needs to make the kind of radical changes he needs to make 
here. This is the only place in the country where as a school 
superintendent, he will have that kind of authority and might 
have that kind of backing, and then you would not be asking me 
what is the teachers union doing, you would be asking the 
General what are they doing on these specific issues in this 
specific place and maybe they will be supportive. And maybe 
they will be supportive, and if they are not, they will not 
have any place to hide.
    Senator Lieberman. Great idea. Thanks.
    Mr. Koch. There are two things that I would do, and the 
governor has mentioned them, but I want to reinforce them. I 
would end the D.C. teacher tenure, and I would put them on 5-
year contracts. If it works, then it will spread throughout the 
country. There is no opportunity to do it elsewhere. You are 
constantly threatened with strikes and the populace in the 
cities is then brainwashed--this has something to do with 
intellectual freedom. It has nothing to do with intellectual 
freedom, the tenure. What it does is it keeps--listen, there 
are great mayors, good mayors, bad mayors, and the same for 
senators and members of Congress, and secretaries in the 
Cabinet. And you want to get rid of the ones that are at the 
bottom. You want to. And with tenures, you cannot. And so I 
would put them on 5-year contracts, and if it works here it 
will spread.
    Second, I think public knowledge is extraordinarily 
powerful. And if I can just give you this little anecdote about 
it to show you how powerful it is, and that means that if you 
take the governor's suggestion and you hold every month or some 
reasonable period a hearing where they can tell you about their 
successes and their failures, and give it wide attention, they 
will get support from people living in the community. The 
community does not know about these things, and I will give you 
the best illustration of it.
    When I came into office, I found that because we were on 
the edge of bankruptcy major corporations were not selling us 
goods, and we were paying the highest prices for shoddy goods, 
and the city of New York spends billions of dollars in goods 
and services, even then. And so I called in the 10 top 
commissioners and I said, listen, I want to get the good 
companies selling to us. Why do they not sell? And one of them 
said, well, Mayor, because we do not pay. We do not pay our 
bills.
    So I said, well, that is a good reason not to sell to us. I 
said I want the bills paid in 30 days, and I want the cash 
discounts from now on. I did not really know what I was talking 
about, but I know it sounded pretty good at the time. So they 
said, well, it cannot be done, Mayor. I said, well, I want to 
tell you how I am going to do it. I am giving you 60 days to 
shape up. These were the 10 major commissioners. And then on 
the 90th day, I am going to publish in rank order which agency 
paid their bills on time and which did not and which is at the 
bottom of the list. And they began to yell, oh, you cannot do 
that, you cannot do that. It is so embarrassing. That is what 
they said. I said aren't you smart? Yes. That is exactly what 
it will be.
    And 90 days later, we published the list. Nobody had a 
terrific record, but some had better records than others. And 
there was somebody at the bottom of the list. It happened to be 
the Parks Commissioner. Great Parks Commissioner, terrible 
payer. And he came to see me, and he said, oh, Mayor, I am so 
embarrassed. My name, my department is at the bottom of the 
list, but I want you to know, Mayor, it will never happen 
again. I said, well, how do you know that? He said, well, when 
I saw my name at the bottom of that list, I went back and I 
called in my people, and I said to my comptroller if next month 
I am at the bottom of the list, it is your rear end. He was 
never at the bottom of the list again.
    And I am saying public disclosure of who is doing a good 
job and who is not doing a good job gets people to do a better 
job.
    Senator Brownback. It does. Gentlemen, thank you very much. 
I think this has just been a wonderful and illuminating 
discussion from people that have been on the front line. So 
thanks for joining us, and we will welcome you back again any 
time for other suggestions, too. Thank you.
    Senator Lieberman. Thank you. Great.
    Senator Brownback. Our next panel will be Dr. Jay Greene, 
University of Houston, who is the author of ``The Effectiveness 
of School Choice in Milwaukee: A Secondary Analysis of Data 
from the Program's Evaluation;'' Ms. Jeanne Allen, President, 
the Center for Education Reform; and Ms. Kathleen Sylvester, 
the Vice President of Domestic Policy, the Progressive Policy 
Institute. Our next panel will be looking at this issue from an 
academic and think tanks' view of what some of these options 
have been, their success or failure nationwide.
    I appreciate the panel members having waited a considerable 
amount of time this morning for a couple of earlier panels. I 
think you can see we are wading through a mountain of 
information and a very troubling situation that is taking place 
in Washington, D.C., and we are serious about trying to do 
something about it. We are searching the Nation for the best 
ideas and for people that have been on the front line, and now 
we are returning to you for an evaluation of what some of those 
front-line efforts have been in educational reform across the 
country because we want to have the best educational system in 
the country here in Washington, D.C. So we hope that you can 
help us to be able to evaluate the various options that have 
been in place across the country. Dr. Greene, we will turn to 
you first, and your prepared statement will be put in the 
record. If you would like to summarize, you are certainly free 
to do that, and then we will have a good exchange. Dr. Greene.

TESTIMONY OF JAY P. GREENE,\1\ UNIVERSITY OF HOUSTON, AUTHOR OF 
``THE EFFECTIVENESS OF SCHOOL CHOICE IN MILWAUKEE: A SECONDARY 
        ANALYSIS OF DATA FROM THE PROGRAM'S EVALUATION''

    Dr. Greene. In addition to the written testimony I 
submitted, I have a copy of my study \2\ and a Wall Street 
Journal \3\ article that I would like to submit as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Greene appears in the Appendix on 
page 98.
    \2\ The study entitled ``Effectiveness of School Choice: The 
Milwaukee Experiment,'' by Jay P. Greene and Paul E. Peterson, appears 
in the Appendix on page 103.
    \3\ An article entitled ``New Research Bolsters Case for School 
Choice,'' The Wall Street Journal, appears in the Appendix on page 148.
---------------------------------------------------------------------------
    Senator Brownback. Without objection, it will be inserted 
in the record.
    Dr. Greene. Imagine that another large government benefit, 
let us say Medicaid, were administered like education in 
kindergarten through 12th grade. We would require senior 
citizens to visit doctors and hospitals for which they were 
geographically zoned. Those doctors and hospitals would all be 
government employees and government operated. Seniors could not 
choose a privately operated hospital, a religiously affiliated 
hospital, or one which was not considered closest to where they 
lived. Even imagine in the field of education that university 
education or preschool education were administered like 
education in kindergarten through 12th grade. The government 
would provide support like Pell grants and Stafford loans and 
day care tax credits, but only for students who choose public 
universities or publicly operated preschools for which they 
were geographically zoned.
    We do not administer these government benefits in this way 
because it is widely believed that depriving citizens of 
choices about their doctor, hospital, university or preschool, 
would decrease the quality and efficiency of those services. 
Instead we deliver these government programs with vouchers or 
choice plans. The government provides a voucher good for open 
heart surgery by any licensed doctor at any accredited hospital 
anywhere in the country. Similarly, Pell grants and Stafford 
loans are effectively vouchers good for an education at any 
university--public or private, religious or secular.
    Given the widespread conviction that choice promotes better 
services in medicine and in education, it is surprising that 
voucher systems are extremely rare in kindergarten through 12th 
grade. Only Milwaukee and Cleveland have publicly funded 
voucher systems right now, and the Cleveland program just began 
this fall.
    The Milwaukee program has been running for longer, and with 
colleagues Paul Peterson and Jiangtau Du at Harvard, we 
conducted a study of the choice experiment in Milwaukee. The 
program was a very limited one. Only several hundred families 
participated. They were all low income, mostly minority. 
Vouchers were good for half of the per capita cost of a public 
education, and had to be accepted by the private schools as 
payment in full.
    Families could only choose among a handful of secular 
private schools, and so as you can see, this was a highly 
limited program. But the program had one very nice feature, 
which is that students were accepted or rejected from the 
program by lottery when there were too few spaces. And this 
created an ideal experimental situation, sort of like a medical 
experiment, where you had a randomly assigned treatment and 
control group. Some people by lottery got the pill, going to 
the voucher private school, and some people got the placebo, 
returning to the public schools.
    And what we did was study the test scores of the students 
randomly accepted and randomly rejected over a period of time 
to see whether there was a difference in their scores. Since 
random assignment should make the two groups exactly alike in 
all respects, any difference in their test scores can 
reasonably be attributed to the difference in the quality of 
their education. And in Table 3 in the report that I have 
submitted to you, you can see the difference in their test 
scores after 1, 2, 3 and 4 years. Even after the first year of 
being in a private school, students who won the voucher did 
better than students who did not, but the difference was not 
very large or statistically significant. But by 3 or 4 years 
into a private school education, students who were accepted at 
random performed significantly better than students who were 
rejected at random.
    And these differences were quite large. The amount of the 
difference is about a quarter to a half of a standard 
deviation, which to put that in perspective, one standard 
deviation is about the difference between minority students 
were participating, if we could replicate the benefits of this 
program, in cities nationwide we might be able to close the gap 
between minority and white test scores by a quarter to a half, 
which would be a lot. And this is a period of 3 or 4 years with 
a limited set of educational opportunities. So the results for 
Milwaukee are quite encouraging.
    But there are limitations. First, it is only one city and 
one program. Only several hundred students participated. And 
they only had a handful of schools participating. So it is hard 
to extrapolate from this one experiment to the entire country. 
Also, some data was missing or never collected, and therefore 
there are some uncertainties about the results. But the results 
are very encouraging, and if you had this kind of positive 
outcome in a medical experiment, let us say treating cancer or 
diabetes, there would be immediate demands for better 
additional experiments to identify the exact nature of the 
benefit of the treatment.
    So what I think could be done here in D.C. is to have 
exactly this type of better designed experiment. An additional 
experiment here in a large urban school district just like 
others around the country suffering similar problems, would 
allow us to obtain a very clear picture of the effects of 
school choice on educational performance. It would also help 
provide information to communities around the country that are 
considering ways of improving their educational systems, and if 
Congress were to consider tax credits for private education 
expenses as a way of promoting education alternatives 
nationwide, a choice experiment in D.C. would provide valuable 
information to this body.
    And I have some lessons that I think that can be learned 
from the Milwaukee experiment about how to design a better 
choice experiment here in D.C. First, I think an evaluation 
team should be selected well in advance to help refine the 
design to make it amenable to study. Second, all families 
should complete a survey, and all students should be tested as 
a condition of application. That would reduce the amount of 
missing data. Third, families should be allowed to choose among 
the largest possible set of private schools, which means 
including parochial schools to ensure that students have real 
alternatives. Fourth, students should receive vouchers by 
lottery to ensure fairness and to make possible comparison 
between similar treatment and control groups just like in 
Milwaukee. Fifth, resources need to be provided to track, 
resurvey and retest over several years those students who 
receive and those students who do not receive the voucher to 
see whether there are real academic differences between those 
who get a voucher and those who do not to see how beneficial 
the program is. And sixth, data collected by the evaluation 
team should be provided to other scholars for verification and 
replication.
    Now, some people wonder whether voucher programs are 
unfair, and this was discussed in the last panel that perhaps 
it might just allow for the skimming of the best students from 
public schools. The experience in Milwaukee suggests actually 
quite the opposite. The students who participated in the 
voucher program in Milwaukee were among the most difficult 
students in the city. They had on average under $11,000 in 
family income, which was under half of the family income in 
Milwaukee public schools. They were half as likely to live with 
married parents. Under a quarter were living with married 
parents. And that is half as likely as the Milwaukee public 
school average. They began the experiment with far lower test 
scores than average Milwaukee public school students, and they 
had evidence of additional behavior problems.
    So these were some of the most difficult students to 
educate, and, in fact, that may be precisely why their parents 
were seeking alternatives because public schools were failing 
them, and they were willing to try anything to improve the 
situation, and the evidence from our study suggests that 
private schools can make a difference even with the most 
difficult students, that there is no reason to write people 
off, to write off large segments of the population and assume 
that because of community or family problems that they cannot 
be educated.
    So a choice experiment here in D.C. could similarly be 
beneficial to some of the worst off students, not the cream. 
And it is funny that we have choice in a variety of government 
services, as I suggested, in Medicaid and in university 
education and in preschool education. The government subsidizes 
choice including religiously operated institutions for all of 
these services. The only place where people do not have choice 
is kindergarten through 12th grade, and the only people among 
the population who do not have choice during those grades are 
people who do not have the financial resources to pay the 
tuition to a private school or to relocate to a community with 
better public schools. So, choice would likely be maximally 
beneficial to those who are least well off and with the least 
choices right now.
    Senator Brownback. Thank you, Dr. Greene, for your 
testimony. Ms. Allen, the President of the Center for Education 
Reform, we look forward to your testimony and interaction.
    Senator Lieberman. Mr. Chairman, with apologies, I wanted 
to extend my regrets to Ms. Allen and Ms. Sylvester and to you 
because I have to leave to go to a meeting. I am going to try 
to come back either at the end of the panel or for the next 
panel. I respect the work that both of you do, and I feel some 
involvement with Ms. Sylvester since she is with a think tank 
that I have more than a passing relationship with. So thanks 
for all you are doing to lead in this effort and thanks to you, 
Dr. Greene.
    Senator Brownback. Thank you, Senator.
    Ms. Sylvester. Thank you.
    Senator Brownback. Ms. Allen.

    TESTIMONY OF JEANNE ALLEN,\1\ PRESIDENT, THE CENTER FOR 
                        EDUCATION REFORM

    Ms. Allen. Mr. Chairman, thank you. Thank you, Senator 
Lieberman. I would like to reflect on what I listened to this 
morning because it was fascinating to sit there and listen to 
various perspectives, and I want to just underscore, although 
my remarks are not focused on school choice so much, I want to 
underscore what Dr. Greene said and your two previous panelists 
about the need to let those people out, Senator, that you 
referred to as being locked in, and that all over the country 
it is not only research but truly first-hand experience that is 
showing us that people want those choices and that minorities 
in particular and those that are poor want those choices more 
than anybody else. It is no longer a question of whether we 
should have choice or not. The debate in the States and 
communities increasingly is how much and when? And I think it 
is very important to recognize that even the last few years as 
school choice has sort of matured, with Cleveland and Milwaukee 
having enacted programs, various States have gotten closer to 
enacting school choice than ever before, and while they are not 
succeeding at the rate that some people would like, 
particularly when we have more and more children falling 
between the cracks, the fact that the opposition is not able to 
(a) defeat legislators who support school choice anymore and 
(b) are not able to kill the bills they used to, I think also 
suggests something about the American public's attitudes and 
how much people are becoming increasingly aware of that 
problem.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Allen appears in the Appendix on 
page 149.
---------------------------------------------------------------------------
    And so I think in some senses, school choice is looked at 
as triage. Let us get the kids out who are right now failing 
who do not have any alternative and I think one of the ways the 
private sector is doing that is commendable is the various 30 
some odd privately funded voucher programs around the country 
that are taking some of the same children that Dr. Greene and 
his colleagues analyzed, and they basically said we have a 
program. We are going to give you half-tuition up to a certain 
amount, the doors are open, you have to be at 185 percent of 
the poverty line, and these people are coming in droves. They 
have over 20,000 kids in those programs, an equal amount on 
waiting lists, and those people have to pay money.
    They have had stories of people--Etta Wallace in Dallas 
getting her electricity cut off so she could continue to pay 
for her grandchildren because they were getting away from gangs 
in the public schools. I mean on and on and on. So there is 
clearly a need.
    But what strikes me about the District, and what was 
interesting to listen to General Becton--who I have tremendous 
respect for, and who has a really rocky job ahead of him, and 
Dr. MacLaury, who I also have respect for--is that there is a 
tendency among any of us who get into a bureaucracy, I worked 
at the Department of Education once, so I speak also from 
personal experience, to begin to not think outside the box as 
much as we should, to focus on the process, and how you 
accomplish something within the realm of the way it has always 
been done, and I have watched the last year or so that 
Washington, D.C. has had charter schools with just amazement 
and anger. Amazement because our research shows that you have 
the second strongest law in the country right here in 
Washington, D.C., and at the same time the Congress passed the 
charter law, six other States passed charter legislation. Those 
States this fall will be opening up 98 charter schools. D.C, 
zero, unless you count the two existing that opened up last 
year under the school board's approval, only one that is really 
credible or reputable.
    And even that is a perfect example of a school that has 
gone awry. Options School is a tremendous school run out of the 
Children's Museum by a woman named Katherine Martins, long-term 
scholar or academic, a teacher in the special ed field in 
Washington, D.C. She is to this day 9 months into the school 
year, still struggling for special education funding from the 
District of Columbia administration. The Federal grant that has 
been gone from the Department of Education, to D.C. still has 
not reached her doors. And every day there is another excuse, 
and she has been incredibly patient. She has a 17-year old 
recently that cannot read, but the District refuses to qualify 
him as learning disabled. Meanwhile we have kids that are 
locked in warehouses not getting the reading skills. I could go 
on and on.
    That is nonsense and quite frankly when General Becton says 
I want to control the charter schools, and I wish Senator 
Lieberman were here to hear that, because I think that he 
responded very quickly and I think appropriately given his 
knowledge, yes, you should have that control; no, he should not 
have that control. That bureaucracy should not have that 
control. D.C. is very much like Arizona. They have a separate 
charter board. They have a State board that can approve 
charters, and local school districts can approve charters. The 
separate board was set up for one reason and one reason only, 
they reasoned in Arizona, again the strongest legislation in 
the country that has over 164 operating charter schools, the 
people in Arizona reasoned that if we set up a board whose only 
job is to charter schools, they will charter schools, 
absolutely.
    So now the charter board in D.C. that mirrors that board in 
Arizona is finally appointed after several months of wrangling 
between the Department of Education and the mayor over 
appointments. Great group of people from what it looks like and 
very dedicated. Josephine was here earlier, the head of the 
board. Now they have staff, just now. They just got their money 
to start doing a process yesterday, but they are also talking, 
I have to say, with the District about having them run a 
process for them, and they are talking about having an 
oversight, and it is not supposed to be that way.
    And so one of the recommendations that is in my written 
statement, as well as one I want to echo here, is that 
Congress, as much as I am a firm believer and supporter of 
local control, Congress has to step in and simply say here is 
the process, folks. You have 5 months because you have already 
had 9 months and you have blown it, you have 5 months, here is 
what you have to do, you set up the application process, we 
want charters starting up and running for people interested in 
January of 1998 and begin to run it for them until they can get 
ready.
    And I will tell you why. Because--and even with that, it is 
not going to be the ``be all and end all,'' and as I said I 
have more detail specifics that I will mention in just a couple 
of minutes, in those recommendations for you, Mr. Chairman, but 
the other thing that strikes me as odd is every State that has 
enacted charter legislation, strong charter legislation like 
yours, has set about the task of promoting the fact that you 
have charter schools. This is not an issue in D.C., and it is 
not because there is not interest. You cannot rely on the 
conventional parent and education groups to promote it because 
they do not seem to think there is a huge problem, and they 
have a vested interest in the current system. Yet there are 
tons of people incredibly interested in starting their own 
school, and I echo what Lamar Alexander said earlier about the 
cultural institutions. Has anyone asked or encouraged strongly 
the board to sit down with all those, think tanks, cultural 
institutions, museums, the opera, and said here is what we 
have? Because when that has happened in other places, they have 
come running.
    In Phoenix, Arizona, you have a school for the arts that 
has been adopted by every cultural institution based in Phoenix 
including the zoo. Those kids take courses at the museum, 
courses at the opera. They do things with people who are 
musicians throughout Arizona. They have fine arts. I mean it is 
just tremendous the kind of play, and they are serving kids who 
are mainly dropouts who are now excelling in their field 
because the arts have commanded them. In fact, next week, we 
are bringing to Washington on Wednesday, and he is just a 
tremendous guy, Ray Jackson is the principal of ATOP Academy, 
also in Phoenix. Ray is a former elementary school principal. 
He was on contract with the school district to take all the 
worst kids. When he stood up and supported charter schools when 
it was going through legislation, the district cut him off. And 
so after the charter bill passed, he was the first to start a 
charter school. He is serving over 300 mainly African American 
children. He said all of this stuff about parents not being 
interested, he said we cannot, we do not know what to do with 
half the parents that show up to work between the shifts. A 
tremendous example of someone who wakes up in the morning, 
starts a school, and they go out and try to make things happen.
    You do not need the superintendent. You do not need the 
school board. You do not need the extra accountability over and 
above what you already have. The accountability will come from 
the community, and, yes, you need the safeguard and you need 
someone saying here is the process, here is what you must abide 
by, health, safety, etc., and we can walk it at any time and we 
have everything down, and we will interview and your books will 
be open. But, guess what, those charter schools welcome that 
kind of vigorous inspection all the time. In fact, they are the 
ones out there opening their doors and bringing those people 
in.
    So I think D.C. has to get with the program, and think 
among the recommendations I would suggest is nothing counts and 
nothing sells like seeing it yourself. And I think if there is 
any way, as I said, even with my respect for local control and 
the ability of parents and people at the district level, and 
the school board members we work with around the country, who 
have just a great ability to capture things, but even with that 
said, if there is a way for you to demand and force the school 
board and the charter board to get out in the field 
immediately, to Massachusetts, Michigan, elsewhere, that have 
charter schools and see it for themselves, to bring those 
people here as well as in public forums.
    There are several community groups right now that are 
aching to get the charter movement promoted but cannot because 
they have not had the information. FOCUS is one of them, the 
Committee on Public Education, a new group called Apple Seed 
Institute is here. And they are all ready, willing and able. 
They know who they are. There are experts around the country. 
There are these charter operators like Ray that is coming here 
next week. If they see it with their own eyes, if the community 
sees it, you will not be able to stop it.
    But it has got to be a combination of you requiring a 
process at the same time a bottom-up approach, and I will tell 
you of the 480 charters operating around the country, only four 
have been closed down. The schools, by and large, as the 
evaluations are coming in, are serving the most needy as well 
as creating tremendous back to basics and traditional schools 
in the suburbs, but by and large they are more integrated, 
serving more disabled children. There is more parental 
involvement, and while that is not objective achievement 
evidence, that is evidence because those are the things, when 
you have those three indicators, you know that something good 
is happening.
    And so I think that we can wait a little bit for evidence 
while we continue to move the movement on. Next year it will be 
over 600 schools serving over 160,000 students across the 
country. This is not a fad. It is not an alternative. It is 
going to be the new wave of public education, and that coupled 
with much of what you discussed this morning is what needs to 
happen, and Washington, D.C. is that crown jewel, and it will 
really be a sin if we do not take advantage of that now. Thank 
you.
    Senator Brownback. A very compelling presentation. I 
appreciate it and look forward to some questioning as well.
    Next, Ms. Sylvester with the Progressive Policy Institute.
    I know Senator Lieberman wishes he could be here to hear 
you. I rather imagine he will agree with what you are saying, 
given his association with your group.

TESTIMONY OF KATHLEEN SYLVESTER,\1\ VICE PRESIDENT OF DOMESTIC 
              POLICY, PROGRESSIVE POLICY INSTITUTE

    Ms. Sylvester. Thank you very much. I think the Senator 
will mostly agree and, of course, he gets a chance to hear it 
from me a lot.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Sylvester appears in the Appendix 
on page 154.
---------------------------------------------------------------------------
    I am really pleased to be here this morning, partly because 
I am a D.C. resident and I care a lot about the city and its 
schools, also because my first professional job was as a 
teacher in an urban school in New Haven, Connecticut, and I saw 
first-hand, I experienced first-hand the heartbreak of knowing 
what it would take to help a child do better in school and not 
being able to do it because of rules and regulations and 
bureaucrats. And I am happy to see that a generation later we 
are beginning to create schools that would allow teachers to do 
some of the things that I wanted to be able to do then.
    I think what is happening in D.C. is really a microcosm of 
what is happening around the country. People are torn between 
their long-held allegiance to public education and an urgent 
sense of doing what is right for children. We do not want to 
tell children and their parents that they have to wait 5 years 
while we improve the system. There is a strong impulse to say 
let them go, let them have vouchers, let them out of the 
system. But I think if we learned anything from Dr. Greene's 
study, what we should have learned is that when you put 
students of low achievement in schools that have high 
standards, that have flexibility and that are held accountable 
for helping those children, they thrive. Why should we choose 
by lottery some children to benefit from that when the 
alternative could be creating schools that do that for all 
children?
    Charter schools are the right answer because they answer 
the fundamental problem of setting high standards instead of 
tolerating low ones. They do not just monitor inputs, how much 
money is spent, or what kinds of equipment is used. They 
monitor the outcomes for kids. They create healthy competition 
within the system. Unlike vouchers, they keep money in the 
public system, in the control of public authority, and finally 
they affirm our commitment to the common public school, which I 
think is an essential element in our democracy.
    Washington is a perfect place to try this experiment on a 
whole large level. First of all, there is no central 
establishment with enough power or credibility right now to 
oppose the idea. There is an attitude here that there is 
nowhere to go but up. It is always easier to experiment in a 
system where people believe that you have nothing to lose.
    We have written by this Congress a very strong charter bill 
that allows 20 schools a year with no cap. That means we could 
have 100 charter schools in 5 years. That is 100 out of 157. So 
there is a possibility to transform this system. As Ms. Allen 
said, we do not have any longitudinal data on outcomes for 
charter schools, but we do know some things about the schools 
that exist. There is a higher degree of parental involvement, 
there is more teacher commitment, there is a higher level of 
student engagement. The schools do not cream--63 percent of 
students in charter schools are non-white and 19 percent have 
disabilities. More than half qualify for Federal reduced or 
free lunches, and 4 percent were dropouts, kids that the school 
systems had already given up on.
    Now those numbers are somewhat artificially high because 
when State legislatures and teachers unions were worried about 
the charter school issue, in many cases they allowed charter 
schools to be created for kids that they felt could be 
experimented on. So a lot of the schools are designated for 
children with disabilities or children of low income or 
children who were dropouts. That is the nature of 
experimentation, but the schools are proving that they can rise 
to the challenge of dealing with those children.
    We have less than 500 charter schools out of 84,000 public 
schools. That is not enough leverage to change the system. The 
notion of charter schools was that some public schools would 
become independent and they would create pressure on others. 
But we can do that here in D.C. because of the broadness of the 
charter law, because of the new commitment by a broad sector of 
the public here in D.C. to try the experiment. And we know that 
when public choice is applied in a heavy dose, as it was in 
District 4 in New York--I am sorry that Mayor Koch did not talk 
about that today--or in Cambridge, Massachusetts, it tends to 
have a galvanic effect on other schools. It engages more 
parents and more students. It energizes teachers. It gets 
principals thinking about what the mission of their school is 
and what they have to offer children.
    I would propose that the District of Columbia become a 
charter district. What does that mean? It means that the 
central authority in D.C. no longer runs all the schools but 
sets high standards. I do not think the fundamental problem in 
D.C. is a lack of resources. I do not think it is bad teachers. 
I do not think it is crumbling buildings, and I do not think it 
is children who are incapable of learning. I think it is a 
fundamental lack of high expectations. There are few people 
here who expect all of our schools and all of our teachers to 
be good. There are few people who expect students to succeed.
    Failure to set high standards is only going to perpetuate 
inequality. When we do not expect children to finish school, 
they do not. Forty percent of the students in D.C. drop out. As 
we heard earlier, 80 percent are not meeting a basic level of 
skills. Setting high expectations is the key to making schools 
work. One of my memorable experiences in my first year of 
teaching in New Haven was teaching a young woman named Sharon 
who could not learn and who was constantly disruptive. When I 
told her for the hundredth time to be quiet or I would throw 
her out of my class, she stood up, she pulled a knife on me, 
and she let out a stream of expletives. Quaking in my shoes, I 
pushed her out the door. I said get out of my classroom, go to 
your guidance counselor, I do not want to see you anymore until 
we have resolved this problem.
    And, of course, immediately after the bell rang, I ran down 
to her guidance counselor in tears and said what should I do 
with this girl? And she said have you tried encouraging her? 
Did you ever tell her she was smart? Have you ever been nice to 
her? And I thought, no, I have not. So the next day she came 
back to school, and I got her to do an in-class exercise, and I 
did not look at it. I put B plus on it without looking at it. I 
said you are doing good work, I think, and for 2 weeks I put B 
plus or B minus on every paper she did. And then I began to 
look at the papers and I would make suggestions about other 
things that we could do, and 1 day I heard in the teachers' 
lounge other teachers talking about the change that had 
occurred in this young woman. I think when you expect children 
to do well, they can do it.
    Unfortunately, many school systems have fallen into the 
myth of the bell curve, that somehow there is only a small 
percentage of students that will excel and there will be a 
large middle of students that do a little bit better or a 
little bit worse than average, and there is a percentage that 
we should write off because they can fail. If we set a basic 
standard of excellence, if we compare students to this basic 
standard, instead of comparing them to one other, if we say 
there is a threshold that we believe all students can reach, 
then I believe that they can do that. If we begin with that, 
and the job of the school board is to measure outcomes by 
routine testing, to close schools that do not measure up, I 
think it will work. If teachers understand that no child leaves 
the third grade without a certain number of skills, and we are 
going to test for that, and they cannot go on, the system will 
change fundamentally.
    We have to give teachers the resources and the freedom to 
do what it takes to get children to read. The other incredible 
shock of my first year of teaching was meeting a 17-year old 
named Michael Ellison who could not read a word and I wondered 
what had happened in his first 10 years of school that no one 
else had noticed it or that they had not felt compelled to do 
anything about it.
    I wish that the trustees were talking about closing the 
schools that do not work instead of spreading it out 
geographically around the city. My written testimony includes a 
lot of examples of the way in which some of these ideas could 
be implemented, but I basically believe that if the school 
board freed up the schools that are already good and opened up 
the potential educational entrepreneurs, that could be groups 
of parents, it could be teachers and principals who are already 
running good schools, it could be unions, it could be our 
cultural institutions, it could be religiously affiliated 
schools, if they would like to clone themselves and offer the 
same structure and discipline that works for so many to another 
group of children, if schools could hire and fire their own 
teachers, if salaries were set by the market, if we could give 
merit pay to teachers who succeed, if we could give hazard pay 
to teachers who take on challenges, then I think the experiment 
could work in D.C. and it could work in a relatively short 
period of time. There is no school district in the Nation that 
is really better suited than Washington to try this experiment.
    We have a business community here that is ready to commit 
itself, the Committee on Public Education. Richard Thompson is 
exploring the possibility of a charter school development 
corporation. The Apple Seed Institute is interested in coming 
here. Friends of Choice in Urban Public Schools, they are all 
here, and I think that we should choose the alternative of 
making all of our schools charter schools. The trustees have 3 
years. They can do two things. They can patch up the broken 
system. They can fire the worst teachers and principals. They 
can close a few schools. They can fix up the physical plants. 
They can import new technology to make the schools look a lot 
better or they can replace the system with a system of 
competitive, excellent public schools. I think these changes 
will not transform D.C. overnight, but they will begin to turn 
the public schools of this city into what its 78,000 students 
and all of its other citizens deserve. Thank you.
    Senator Brownback. Thank you very much, Ms. Sylvester. I 
appreciate that. You know all this seems so reminiscent to me 
in another context I used to be in as Secretary of Agriculture, 
which you may think is far afield from this, but I came into 
that in Kansas in the mid-1980's, and we were going broke 
raising wheat. This was the farm crisis or depression. And I 
came as Secretary of Agriculture, and I said, you know what? If 
we are going broke raising wheat, why do we not raise something 
else? Let us just do something different. And I look at all 
these numbers here. Whether it is the objective numbers, the 
SAT scores, the dropout rate, the number of students fleeing 
these schools, the violence that is taking place, the sex in 
schools by grade schoolers, and I am saying if this thing is so 
broke, why are we not doing something just different?
    Why not go this other way? Now what I guess I am hearing 
all of you say is that you agree with that statement. And you 
do not see it happening even though we have authorized it to 
take place. So that somewhere there is the huge inertia within 
the system or people fighting against that taking place. Now, 
one thing that a couple of you suggested, and Lamar Alexander 
has as well, is on just making all the schools in the District 
charter schools or an overall atmosphere. I am curious to 
follow up on that as a way or the way to push the charter 
school on forward. Just say these are all going to be charter 
schools. Are we going to fundamentally restructure on the top 
of this thing to force this to take place, or are there other 
ways that we need to do this to cause this to happen?
    Ms. Allen. I think in essence, Senator Brownback, that is 
what we need to be doing, but I am afraid that just doing that 
now, letting a district go, releasing all the strings is not 
going to change the behavior of anybody in the system who has 
not brought it on themselves. I had a State board member in 
Michigan once come up to me after I made an impassioned plea 
for charter schools, and she said, well, you know, nothing you 
said is any different than what we can do now. We have waiver 
authority, and we have a 100 and some odd schools that have 
already asked us and we have waived everything, and she said 
they are not doing anything differently. And I said, well, why 
do you think that is? She said, well, because they have never 
acted any differently.
    You see just giving a waiver to the principal or just 
giving a waiver to the superintendent from rules does not 
actually convince them. What is happening in the charter 
schools and what will make all D.C. schools charter schools 
eventually is that example, is when parents and teachers from a 
school--that may have been closed down or that is challenged or 
having all sorts of problems--get together, design a program, 
and have ownership. And then the people start coming in. And so 
it is easy to say. I mean it is something the school boards 
like to say in defense of their charter school position, which 
is very weak, well, let us make all schools charter schools, 
and you give them the mandates and they do not care if you 
release them from mandates. They are going to still do it the 
way they have done it because they are still in control. And so 
you have to change the playing field, I think, and you have to 
do it by starting out and getting D.C. to give those 20 charter 
schools out this year and make up for the 10 they lost last 
year.
    Senator Brownback. So putting demands in the system and 
performance goals, 20 by this time January 1, 1998, I think, is 
what you had said?
    Ms. Allen. Yes.
    Senator Brownback. Ms. Sylvester, what is your response to 
that question?
    Ms. Sylvester. I think that D.C. should take the approach 
that the city of Chicago took when the mayor took over the 
school system. They made a list, and they said these schools 
are doing fine; we will allow them to continue to operate the 
way they were. These schools are so bad, we must close them or 
take them over, and they began to sort of share the richness. 
We ought to be looking at bad schools in this city and say we 
are going to send in a SWAT team, and they are going to have 
freedom. We will let them be a charter school if they want, and 
if they begin to produce results, then we will let them run the 
school in a different way.
    There are 30 applicants queued up to apply for charters. 
They ought to be not just allowed but invited. I did not hear 
anything this morning, any great enthusiasm for actually going 
out and announcing that we want people to come up with great 
schools.
    Senator Brownback. I did not either.
    Ms. Sylvester. There are some great schools in Northwest 
Washington that are over-subscribed. If you ask those 
innovative educators if they would like to clone themselves, 
they would probably say, yes, we could create another school 
just like ours for other children in another part of the city. 
I think there are 15 principals--right now I learned last 
night--who are meeting secretly to talk about whether they 
would like to all become charter school principals because they 
could take the money they get and do a much better job for 
their students.
    Senator Brownback. What if we just went, though, completely 
to a voucher type of program immediately or as quickly as 
possible? Would that force the charter school movement on 
forward?
    Ms. Allen. Well, Arizona credits its strongest charter law 
in the land, Senator, with having introduced a very strong 
voucher bill and everyone came running, and they created this 
wonderful charter bill. So that is one way to get it moving 
because you can bet that a lot of the inertia is a result of 
all of the different special interests that the District must 
because of its position be responsive to, sitting down every 
day questioning everything they do. And so before they can do 
anything, they have to respond. I mean there still has not been 
any, for example, ballyhoo and cry over KIDS I. You may have 
read in the papers it is nationally acclaimed private company 
that has been helping special ed kids in places like New Jersey 
for half the cost that it currently costs to educate in the 
public school. They were approved for a charter school. They 
sat here for 3 months paying bills and no one would give them 
the final go-ahead to get the building that they basically had 
a little shell office in. They are gone. They said, sorry, we 
cannot afford it anymore.
    So why? Because someone was sort of mixing around with 
things that made sense. So, yes, I think that you should bring 
choice back in force. I think that your proposal from when you 
were in the House and Senator Lieberman's proposal and Senator 
Coats' proposal is tremendous. It had a lot of support, and I 
think that it did not get nearly enough of the hearings it 
needs to, and certainly there are those of us who do believe 
that that should be a companion to charters anyway.
    Senator Brownback. Dr. Greene--and I will let you go on 
that, Ms. Sylvester, then next--but you would welcome that from 
an academician and would help us design it so that we can see 
if this works and measure it with known time lines and 
objective results that we would come up with?
    Dr. Greene. I would be more than happy to. I mean I think 
that one of the most important things that could be achieved 
from a choice experiment here is not just helping the students 
in D.C., but providing an example to communities around the 
country that are considering various educational alternatives 
and part of the inertia is a wariness of what the effects of 
these programs might be, and if we could have a well-designed 
program here that would allow communities to learn about the 
possible benefits of choice, in a well designed way, then other 
communities can make decisions about whether they wanted to 
imitate that, and, of course, it is the best way of disproving 
critics as well. If people believe that choice is effective, a 
well-designed study should show it. If it does not, then there 
may be problems with the concept and something else ought to be 
tried. But there is no way to know without the experiment.
    What I find amazing is that we have good theoretical 
reasons and some good evidence to believe that choice is 
academically beneficial, and there are large numbers of people 
who aren't just opposed to the idea of choice, but are opposed 
to the idea of any experiment, no matter how small, no matter 
where in the country that would allow us to know whether the 
programs are beneficial.
    Senator Brownback. And we have a wholly failed system in 
Washington, D.C., in the District of Columbia, by our own 
people appraising it, saying this is a wholly failed system.
    Dr. Greene. Which would make it an ideal place to try 
something more radical.
    Senator Brownback. Ms. Sylvester, you had wanted to 
comment?
    Ms. Sylvester. Wholesale choice could not work because we 
do not have enough good schools to send the children to. That 
is the problem with it. As Dr. Greene's study proved, putting 
children in a school with high standards and high expectations, 
a rich learning environment, works. But we need to create more 
good schools. I would certainly say that perhaps the school 
system ought to look and take kids out of the three worst 
schools in D.C. and scatter them into good public and private 
schools that are good across the city. We should say we cannot 
let those children wait until their schools turn around. But 
that would be a publicly-supervised voucher program.
    Senator Brownback. So you are saying I do not oppose 
vouchers, but this system is not ready because it does not have 
schools to be able to accept enough students for vouchers? I 
noted that we have a lot of requests for charter schools, but 
they are not in place yet. The Catholic diocese has said they 
are going to keep their schools open in the District of 
Columbia, which I applaud their effort, and I have made that 
known that they are staying here, and I think that is great 
that they are doing that. Would you propose then a transition 
time period to go to a fully vouchered program? Would I 
understand you to support that or not?
    Ms. Sylvester. Well, if you moved toward a fully chartered 
district in which all schools are measured and held accountable 
and they operate on the condition of producing results, and you 
had open enrollment, which meant that children could go to any 
public school in the city, I think that would be the ideal 
situation.
    In the short-term while we are trying to create enough more 
good public and publicly accountable schools, one solution for 
a large number of children would be to reassign them to better 
schools that are public or that are private or parochial.
    Senator Brownback. So you would set some base standard--and 
correct me if I am not saying this correctly--if they are going 
to a school that is wholly failed, and say we set some standard 
of violence or some standard of sexual incidents, or some 
standard of objective test scores, that has not worked out of 
this school, that those students are given the right to have 
voucher or choice, public or private? You would create it on a 
smaller scale in the worst area first? Is that how you would 
design it?
    Ms. Sylvester. Right. The problem with the lottery system 
is that it is only taking some students and leaving others 
behind, and people will console themselves. You could see the 
political leaders in this city saying, well, we have vouchers 
so some kids, we are doing something, but it is not enough. We 
have 78,000 children. We cannot move them all instantly to good 
schools.
    We should start trying to make all the schools better 
simultaneously by letting good schools clone themselves, and 
closing bad schools. But what do you do for children who came 
from bad schools? I would say do not give their parents the 
money and say they can go anywhere. I would say the school 
system should work with their parents and say, ``Let us make 
another choice for this child. Would you like a parochial 
school because your child needs more structure and discipline? 
Would you like this kind of a private school that emphasizes 
the arts that might ignite your child's curiosity? ''
    Senator Brownback. Ms. Allen, what do you think of that 
more phased-in approach rather than just saying, OK, we are 
doing 100 percent of vouchers in a year, phasing it in for the 
failed schools initially and over a period of several years?
    Ms. Allen. Well, I am a real pragmatist and I like to see 
something happen immediately, and so whatever I can get, I 
would take. But I guess what I would say is two things. In 
places like Texas, the proposal pending there, for example, 
does just that. It takes kids in schools that are on the low 
performing list and if they cannot get into a public school of 
choice, they allow them to go to a private school. That is a 
proposal that has a lot of chance. I think that has got a lot 
of merit to it and I think it gets away from a lot of the 
arguments that you would naturally face, and it will be part of 
the media and the administration and everything else that you 
are creaming and that somehow we are not helping public 
education, while at the same time again pushing the charter 
school mode.
    I think that the idea of supply that Kathleen Sylvester 
mentioned is an important one, but you also got to recognize 
that there are lots and lots of schools out there that could 
expand like this into buildings who have already closed down 
and have empty buildings if, in fact, they had people who 
wanted to come there. So the actual supply of open seats today 
is not a good reflection of what would happen if suddenly kids 
had scholarships.
    Senator Brownback. If we told everybody in a year there is 
going to be a massive voucher program?
    Ms. Allen. Exactly. And I think the schools have to be 
accountable. I think they have to have a certain amount, either 
accreditation or pass some muster. I think you have to take 
care to make sure you do have solid working private schools 
that have been in existence for awhile, but I think the 2,000 
voucher pilot project last year proposed was a wonderful 
suggestion and very much along the lines of Milwaukee, and I do 
not think people should get their feathers ruffled if you want 
to help the 2,000 worst off kids because I think you will have 
the competition that everyone has talked about today.
    Senator Brownback. Good. I want to thank you all very much. 
We had very illuminating panel members and you folks have been 
amongst them. If you have other comments that you would like to 
provide to us, please feel free to submit those in for the 
record and we do hope you will help us as we structure and 
tackle a most intractable and most important problem. Thank you 
very much.
    Our fourth panel will be D.C. Councilmember Kevin Chavous. 
He is Chairman of the Committee on Education, Libraries and 
Recreation. And Mark Roberts, parent of a student in the 
District of Columbia Public Schools, who I believe has done 
some writing also on some of the choice that he has previously 
experienced. We did have another member that had to cancel for 
health/family related problems that is not going to be able to 
join us on this fourth panel. Gentlemen, I do not know how long 
you have been waiting, but if it has been for any length of 
time, I appreciate your hanging in there with us. I hope you 
have gained as I have by this presentation.
    So, Councilmember Chavous, thank you for joining us.

TESTIMONY OF KEVIN CHAVOUS,\1\ D.C. COUNCILMEMBER, CHAIRMAN OF 
      THE COMMITTEE ON EDUCATION, LIBRARIES AND RECREATION

    Mr. Chavous. Thank you very much, Mr. Chairman and Members 
of the Subcommittee. I am Kevin Chavous, Chairman of the D.C. 
Council's Committee on Education, Libraries and Recreation, 
which as you may know has jurisdiction over the District of 
Columbia Public Schools, the University of the District of 
Columbia, the District of Columbia Public Libraries, and in 
addition the Department of Recreation and Parks.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chavous appears in the Appendix 
on page 160.
---------------------------------------------------------------------------
    First of all, I would like to thank the Senate Committee on 
Governmental Affairs, Subcommittee on Oversight and Government 
Management, Restructuring and the District of Columbia, for 
giving me the opportunity to testify on opportunities for 
improvement in the public education in the District of 
Columbia. I have submitted prepared testimony, Mr. Chairman. I 
am just going to read portions of that and then hopefully we 
can engage in some constructive dialogue with respect to some 
of the issues that you have raised and that have been raised by 
Members of your Subcommittee today.
    Believe it or not, Mr. Chairman, I think that these are 
exciting times for the District of Columbia, for it is during 
this time of budgetary chaos and constraints that we can begin 
to rebuild our entire educational infrastructure. We have no 
choice but to look for solutions to address the overwhelming 
under-achievement of our student population. My committee is in 
a unique position to foster and enhance collaboration among the 
educational entities under our purview, for the sole purpose of 
producing a well-rounded student, who not only achieves, but 
can compete on a national level.
    To that end, our committee is working closely with D.C. 
Public School System to jump-start educational reform in the 
District of Columbia. One of our most important goals is to 
make sure that the D.C. Public School System refines the 
recently developed school-based staffing model, which is the 
initial step in building a zero-based budget for our schools. 
Once all facets of the school-by-school based budget are honed, 
it is my committee's hope that the needs of the students will 
be adequately addressed on a school-by-school basis.
    As you know, a major debate rages about educational funding 
in our city. All policymakers within the District of Columbia 
are faced with increased pressure to do more with less 
resources. There are those who say we can no longer throw money 
into a vacuum, yet on the other hand, there are others who 
clamor for substantial increases in the funding for our 
schools. It is my view that student achievement must serve as 
the foundation for whatever additional resources are allocated 
to our school system. And why I do not claim to have the 
panacea or the quick fix for the ills of the public school 
system, I am convinced that from my point of view, if we focus 
on four major areas we can spend our money wisely. And briefly 
I will relate those areas which are amplified in my prepared 
text.
    First is student achievement. All the budgets in the world 
are for naught if ``Johnny can't read.'' In Goals 2000, the 
residents of the District of Columbia have stressed that a 
performance-based education is tantamount to accomplishing 
educational reform. The schools have to create a more rigorous 
standard for student performance in every class. The method for 
student assessment has to change so the D.C. Public School 
System can measure not only what students know, but also what 
they are able to do with their knowledge. We have to ensure 
that students master reading, writing and arithmetic in their 
appropriate levels before they are moved on to the next grade.
    Second, as I mentioned earlier, school-by-school based 
budgeting has to serve as the foundation for an equitable 
distribution of resources. However, some schools may receive 
augmented resources depending upon their particular needs. With 
any such budget in hand, any citizen in the District of 
Columbia can pick up the budget book and see how and where the 
funds are spent in any school. A parent would no longer have 
the need to question or decipher expenditures since they would 
be plainly and readily available. Additionally, the people who 
misspend money will be held accountable for their needs.
    The third area where I think we really need to focus on in 
terms of reform has to do with principal and teacher training 
and evaluation. We must develop strategies that hold principals 
and teachers alike accountable for the performance of our 
children. There is no tradition of decision-making based upon 
setting priorities that are tied to accountability and teaching 
mechanisms that work. There should be, and I was pleased to 
hear Senator Alexander refer to this, there should be 
performance-based appraisal for all employees. Teachers and 
principals need to be assessed accurately, fairly and timely. 
Just as significantly, our system should be able to reward good 
teachers and principals and ferret out or terminate those who 
are not performing.
    Specifically, as it relates to principals, more often than 
not, where we have good principals, our students excel. We must 
endeavor to place the very best principals in each school in 
our system.
    The fourth area of priority is in the community-based 
school or community hub. Family and community participation, 
coordination and integration of social services, adult 
education and life-long learning, and substantive collaboration 
in partnerships with all segments of the community are listed 
as goal No. 7 in the Goals 2000 plan. It is in this spirit that 
my committee has embraced the community hub concept, which has 
been defined by the D.C. Education Licensure Commission as ``a 
D.C. public school building used as a multipurpose center that 
provides the opportunity to integrate support services and 
enable intergenerational uses to meet the life-long learning 
needs of community residents. Family and community services 
could include before and after-care, counseling, tutoring, 
vocational and career training, art and sports program, housing 
assistance, family literacy, health and nutritional programs, 
parent education, employment assistance, adult education and 
access to technology.''
    During a hearing in January of this year, the first hearing 
my committee held, we were delighted to learn that the 
community hub concept does not require additional funding. 
Rather community hubs coordinate and utilize already existing 
resources. It is our fervent hope that the D.C. Public School 
System and other appropriate authorities will replicate the 
community hub concept as has been established at the Patricia 
Roberts Harris Educational Center in Ward 8. We hope it can be 
replicated in all wards of the city, and we have introduced 
legislation to that effect.
    Finally, let me close by referring to the District of 
Columbia Public Schools Long-Range Facilities Master Plan. We 
received a draft of that plan from General Becton, who 
testified before you earlier. And we strongly felt that while 
the plan had a lot of potential, an essential element, the 
academic component, which should be the driving force behind 
any facilities plan, was absent. So our committee set in place 
a special task force to work with General Becton's office to 
develop the plan which we must submit to Congress by April 25, 
1997 with respect to our long-range facilities plan.
    We feel that it is vitally important when you talk about a 
facilities plan, when you talk about school closings, that you 
must have in place an educational plan that will aid in student 
achievement. We feel that this plan has the makings of doing 
that, and we hope that all future consideration given to the 
facilities plan that the school system implements as well as 
any school closing proposals are driven by student achievement 
and not just the need to close schools.
    With respect to some of the priorities that I have just 
testified to, Mr. Chairman, just so you know that our committee 
intends to be aggressive and active in its oversight 
responsibility, we have scheduled hearings in the future on 
student achievement, on the charter school issue. We have a 
hearing set on May 15 to talk about charter schools. We are 
also going to have a hearing on the principal and teacher 
training and evaluation issue that I have referred to in June. 
And finally, in May, May 28, we are going to have an oversight 
hearing to discuss truancy. I do not think that has really been 
mentioned in any great detail this morning, but it is my view 
that our school system needs to have a model truancy program 
that our committee will help shape and form. There is no secret 
that when children do not go to school and they eventually drop 
out of school, they end up becoming associated with gang 
activity or other negative or hostile activity that is 
counterproductive to the needs and wishes of society. So we 
really are going to focus on truancy as something that we need 
to address and develop a program that will make sense 
consistent with the needs of our children.
    In conclusion, those are but a few of the efforts that our 
committee in the process of putting forth in our commitment to 
make the District of Columbia School System the pride of the 
District of Columbia. I know that there are a number of 
questions and a number of topics that have been raised previous 
to my testimony, and I am more than willing and able to comment 
on some of those, but that concludes my prepared remarks. Thank 
you very much.
    Senator Brownback. Thank you very much, Mr. Chavous. Sorry 
about mispronouncing your name to start off with. I apologize 
for that, but thank you for your testimony.
    Mr. Chavous. That is all right. I have been called worse.
    Senator Brownback. I have been called a lot of things, too. 
Mr. Roberts, thank you for joining the Subcommittee and happy 
to hear your testimony, and if you would like to just submit 
the written testimony and summarize, you are free to do that as 
well.

    TESTIMONY OF MARK ROBERTS,\1\ PARENT OF STUDENTS IN THE 
              DISTRICT OF COLUMBIA PUBLIC SCHOOLS

    Mr. Roberts. OK. I have submitted written testimony so I 
will summarize. First of all, I should say that I have three 
children in the D.C. Public Schools, and on the basis of what 
we have heard today, you all must be wondering what is wrong 
with me, and I am here to tell you that I do not think there is 
anything wrong with me and why and what I think needs to be 
done to help improve the system where we are currently.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Roberts appears in the Appendix 
on page 168.
---------------------------------------------------------------------------
    I also want to say that prior to coming to Washington, 
D.C., I was very active in New York, in New York City and the 
parent involvement movement there. I have been PTA president at 
a number of schools. I have one child who is now a junior in 
high school--for her entire academic career--and I also served 
as president of the President's Council in New York, and in 
that capacity basically was the parent representative for about 
16,000 children.
    What business are we in is how I like to look at this, and 
what I think what needs to be done I call change before choice. 
To me, the business of public education is knowledge, 
specifically the delivery of knowledge, and it is through this 
delivery system that we mold and ideally inspire our youth. 
When reviewing the report, ``Children in Crisis,'' released in 
November by the District of Columbia Financial Responsibility 
and Management Assistance Authority, its devastating conclusion 
merits revisiting. ``For each additional year that students 
stay in the D.C. Public School System, the less likely they are 
to succeed, not because they are unable to succeed, but because 
the system does not prepare them to succeed.''
    For too long it seems the business of public education in 
the District of Columbia has been jobs creation. The system has 
been designed not to serve children but rather to serve adults 
and their political ends and economic means. In our efforts to 
prescribe remedy, therefore, we must be careful not to do the 
same. The State of New York recently concluded an extensive 
study of its public schools in an effort to answer one 
important question: Why do some public schools outperform 
others?
    After controlling for income and other demographic 
variables, New York concluded that four factors created success 
in public education, and this achievement was not limited to 
any one socioeconomic group or pattern. The four factors were: 
A strong principal with a clear vision; a well articulated 
curriculum; targeted staff development; and strong meaningful 
parent involvement. Clearly, far too many D.C. schools, public 
schools, have failed to address each of these critical areas.
    What is needed now and what I believe can occur is a 
systematic approach to correct these deficiencies and 
reprioritize our efforts rather than a localized solution which 
liberates only a few from the prison of low expectation which 
is crippling with the system today. I was born and raised in 
Anacostia, here in Washington, D.C. I received a solid 
elementary school education at Our Lady of Perpetual Help, my 
neighborhood parochial school. Despite the small physical 
plant, relatively poor parish, overcrowded classrooms and well 
worn books, I was able to spring from that segregated platform 
all the way into the Ivy League. My wife, also a Washington 
native, received her firm educational foundation in her 
assigned neighborhood public school and also later entered the 
Ivy League.
    Prior to 1995, when we relocated, my wife and I, back to 
Washington from New York, we remained confident that our 
children were also being well served by their neighborhood 
school. Like most urban children, ours attended public schools 
which were overwhelmingly populated by children of color. Too 
often this demographic reality alone has been used to justify 
massive failure or to explain away consistently poor testing 
results or even to legislate profound changes and takeovers as 
recently occurred in Hartford.
    In fact, given the seemingly high per student expenditure 
rates in urban education today, one can presumably draw only 
one of two conclusions: Either these children cannot learn or 
our school systems are incapable of teaching them unless, of 
course, their numbers are artificially diluted via various 
busing, redistricting or ability tracking schemes. My 
experience as a public school parent tells me differently. In 
New York, all was not perfect. Our neighborhood school suffered 
from overcrowding, uneven performance, and sometimes uninspired 
leadership. The difference here, the answer here, lies in the 
remedies at hand. New York's regulations regarding parental 
involvement gave us parents the ammunition we needed to effect 
change. If the principal failed to exhibit the strong clear 
leadership required for excellence, we were able to effectively 
agitate for removal.
    If a vacancy in the local administration occurred, a 
parent-led committee interviewed and screened a worthy 
replacement. If a teacher's performance as measured by yearly 
class-specific data indicated a deficiency in technique or 
institutional will, we were able to demand either extensive 
retraining or lateral placement out of the classroom. Mandatory 
consultation areas including budget, curriculum, resource 
allocation and staff development empowered by our local parent 
associations and our required school-based management teams. As 
an active member in both groups, I was able to work with the 
administration and teacher representative as an equal.
    Together we worked to raise our collective level of 
expectation for students including those whose parents who were 
for whatever reason absent from our discussions. Similar to the 
Citizens Charter enacted in 1991 in Great Britain, we parents 
received annual reports on our individual schools including 3 
year trends, parent outreach programs, school-based budgets and 
comparable performance data from similar schools.
    In addition, grade specific descriptions of curricular 
goals, objectives and assessment tools gave us the information 
we needed to rally for change. In effect, change became our 
choice. Here in Washington, as I painfully discovered during a 
tortuous first year for one of my children at our assigned 
neighborhood school, these powers of parental change and 
influence do not exist. Schools operate as the private domains 
of principals and distant central administrators. The opinions 
of parents are neither sought nor welcomed. Parent associations 
operate outside of the D.C. School System in a quasi-private 
collection of PTAs with no regulatory power and no clear 
purpose.
    When our child was confronted with a program replete with 
low expectations and inadequate instruction, everyone told me 
there was nothing to be done about it. I felt like a desperate 
mouse caught in an endless maze. After numerous conversations 
with the principal, the central administration, the local PTA, 
elected school board members and others, I called my saga 
``chasing it,'' as in ``there is nothing I can do about it'' or 
``I am not at liberty to discuss it.'' In June, my daughter's 
standardized test scores exhibited a 10 percentage point 
decline in a single year.
    Here was physical evidence of the authority's far-reaching 
conclusions. Had strong meaningful parental involvement, one of 
the cornerstones of success in public education, been a 
legislated aspect of public education in D.C., we parents in 
concert with like-minded teachers and administrators could not 
only have discovered it but also turned it around. Instead, my 
wife and I transferred our children to another school outside 
our ward and joined the ranks of the fortunate few.
    I now know that public education can work here in the 
District. At their new school, I have seen my children 
rediscover a joy for learning and challenging work. I have seen 
their prospects grow. And each day as I pass their old school, 
the neighborhood school, which should also be thriving, I look 
into the familiar faces of children who also deserve an equal 
chance, and I wonder how it is that two schools in the same 
city with the same pay scale and the same basic books could be 
so different in their approach to learning and their underlying 
expectations for achievement.
    My children sorely miss their daily interaction with the 
neighborhood kids and the neighborhood school, but they relish 
their new-found confidence in themselves and their abilities. 
How then can this inequity be addressed? And I am going to 
conclude with this. How can we improve the prospects for all 
the children and not just a few? For me the answer is clear: 
Rewrite the rules of engagement; unleash parental influence 
through specific measures mandating parental input, approvals 
and organization; reclaim elected parent associations as 
central elements in the search for excellence, elements far too 
important to leave to the province of outside groups; elevate 
the District's Office of Parent Involvement beyond the Title I 
limits around which it now revolves; educate parents on their 
new rights and their new responsibilities; arm parents with 
specific data on local school and classroom performance, school 
budgets and measurable curricular targets, none of which they 
have now. Resist the urge to solve the problem from on high. 
Involve parents in all aspects of public education and watch 
the pockets of improvement bubble from within.
    Do this and I am convinced that we can truly hail a new 
renaissance in public education in the District and save our 
remaining neighborhood schools, all of them. It is imperative 
that we act now and clearly the right choice is change. Thank 
you.
    Senator Brownback. Thank you, Mr. Roberts. I appreciate 
that. You are saying that the answer here is to reengage the 
parents, and I take it your overall model is not only New York 
but the British type of system that you cited earlier of 
parental rights? I forget the name you put with that. Are those 
the two models that you are saying we should look at and 
instill in the District of Columbia?
    Mr. Roberts. Yes.
    Senator Brownback. OK. So those are places we could look 
for requirements, legislation, things that have been put into 
place and through your experience or reading and study have 
worked?
    Mr. Roberts. And I think it is important. If you look at 
the current documentation here in the District, the Goals 2000, 
the Children First Framework, parent involvement is not a key 
element of any of those programs, and I agree with Mr. Chavous 
and welcome all of his hearings, but I would suggest that there 
also be one to look at the policies regarding parent 
involvement because you cannot change, you cannot improve the 
system, if you do not involve parents in that process. You just 
cannot.
    Senator Brownback. Mr. Chavous and Mr. Roberts, this is a 
failed system currently by its internal judgment, by the 
objective numbers out, by anecdotal data that we have been 
seeing. This is a failed system. The General is saying give me 
till the year 2000 to correct this system. We have heard a 
number of ideas and suggestions today. I think, Mr. Roberts, 
you are saying do not walk away from the system, change it from 
within. Do we force those children to stay in this system today 
while we are changing this system? Is that the right thing for 
us to do for these children today?
    Mr. Chavous. Well, Senator, let me respond this way. First 
of all, I am pleased to hear Mr. Roberts' testimony about his 
experience because while our system is in many ways failing, it 
has far more successes than you would know just by reading the 
headlines or watching the news reports. I am going to recount 
just a couple this past week. This week, you obviously have 
been inundated with reports about the sex incident at Winston, 
while at the same time, over 300 high school students were at 
the courts yesterday, last night, after having prepared for 
their moot court competition, and there was no news coverage 
there. If you could have seen the performance by some of those 
young people, they were frankly remarkable.
    And Banneker High School is a high school that rates with 
any parochial or private high school in the area. It produces 
excellent students every year. H.D. Woodson High School, a 
school in my ward, they have a state-of-the-art real estate 
program where students buy and sell real estate during the 
course of 1 year. I say this not to parry with you with respect 
to the failures of our system. They are legendary, but they 
must be counterbalanced. And I think Mr. Roberts' experience 
speaks to that.
    Part of the problem within our school system is that we 
have some schools that work, and they work very well. And the 
primary reasons why they work really dovetails into the four 
factors that Mr. Roberts alluded to, and during my testimony I 
think, and the first factor he mentioned is consistent with the 
first area we need to focus on, and that is in principal and 
teacher evaluation and training, where you have a good 
principal, you have a good school generally, and when I say a 
good principal, a good principal is, as I am sure you can 
appreciate, like a good politician. They know how to work with 
the community, they know how to work with central 
administration, they know how to work with a good curriculum, 
they know how to engage folks.
    We have had some individuals who were good teachers, great 
assistant principals, but they were terrible principals because 
they did not have the full complement of skills necessary to 
make things work. I say all that because I think it is 
important when we look at some of these incidents that sort of 
stand out and grab headlines, if we can focus on our principal 
core, and during my committee hearings, I have urged General 
Becton, he needs to evaluate all 157 principals in the system, 
and evaluate them in a comprehensive manner, engage them, get 
parents involved in the evaluation process, and where he has 
deficient principals, they need to go.
    Senator Brownback. Mr. Chavous, with all due respect that 
you have accurate statements there, which I agreed with General 
Becton, there are successes, the objective numbers, and we can 
go back through the charts, say otherwise on a total system. 
They say this is a failed system. Their own documents.
    Mr. Chavous. Well, that is why General Becton is there. I 
mean he was put there because the system has had a lot of 
failures.
    Senator Brownback. So do we keep those students that are 
there now trapped while this system is changed? They are forced 
to stay there now within the public educational system unless 
they have economic wherewithal to go private or to move out of 
the District of Columbia, which does not seem fair to me.
    Mr. Chavous. Well, let me respond. I think it was Ms. 
Sylvester who said we have 78,000 students in our system. We 
cannot put them all in a charter school, and we cannot put them 
all in a private school. The archdiocese has said we are doing 
fine, but we cannot absorb anywhere near 78,000 students in 
their system, and there are no private schools that can do 
that. Vouchers will not address that at the tuition rates that 
some of the private schools have. I think what has to happen is 
they have targeted assistance schools where they have looked at 
the 23 schools with the lowest test scores who arguably are the 
worst performing schools in the system. We have put in place a 
cadre of volunteers working with some college presidents, folks 
who can provide some additional resources in mentoring and 
tutoring after hours at these 23 assisted schools. I think that 
Americorps has been involved in this process as well.
    The important thing is when we merge that into the 
community hub concept, we have a full complement of resources 
taking place at some of these schools beyond 3 o'clock because 
a lot of the problems, Senator, that we have with our schools 
is not just the fact that the schools are failing, frankly a 
lot of parents are failing. And I think Mr. Roberts is a 
testament to an active parent. But we have a lot of parents who 
because of their own lot in life are not as active in terms of 
their participation, and they really do not have the interest 
in the their children. The community hub concept helps develop 
that, helps get some parents involved, working with the 
volunteers so that we can help fill in that gap while there is 
complete reform in the system.
    Senator Brownback. We will get back to you, Mr. Roberts, 
but let us take these 23 schools then. And you are saying they 
are bad schools.
    Mr. Chavous. Yes, absolutely.
    Senator Brownback. Why not for them then at least allow 
those students the choice of either public or private and they 
could probably have the capacity to be able to accept those 
into either type of system rather than requiring that they stay 
there while we keep telling them we are going to get it fixed?
    Mr. Roberts. Mr. Chairman, what I----
    Senator Brownback. I will get to you, Mr. Roberts, but I am 
really curious about how Mr. Chavous would respond to that on 
those most troubled schools?
    Mr. Chavous. When you say in terms of the charter school 
approach?
    Senator Brownback. Or saying that they can go to parochial 
schools----
    Mr. Chavous. Well, first of all----
    Senator Brownback. Or saying whatever option that they want 
to be able to go to, that they are not relegated to have to go 
to those schools.
    Mr. Chavous. Yes. Well, a couple things. First of all, I 
think that even with those 23 schools, and I do not know the 
dynamic that exists in terms of the leadership of all those 
schools off the top of my head, my sense is that if General 
Becton made some changes with the leadership at those schools, 
you would see almost immediate change. I have noticed that with 
a couple of schools in my ward where there was chaos in one 
particular school, gangs, people floating in and out of a 
class. As soon as you got a new principal in there, inside of a 
month, there was a radical change in the way that school was 
run. So I think that some of the turnaround that needs to take 
place even at those 23 targeted schools can be virtually 
instantaneous. Now, you have to get additional resources in and 
to reform an entire system that takes some time.
    On the charter school issue, the council passed charter 
legislation. I was glad to hear again, Mr. Alexander say that 
the legislation that was eventually adopted by Congress with 
the participation of our city council was one of the two best 
in the country. So there is from a legislative point of view 
some openness to the charter school concept here in the 
District of Columbia. And, indeed, I think the chartering 
entity, which is the elected board of education, through the 
new chairman that they have, Reverend Robert Chiles, has been 
working with different resources to create not a hostile 
environment for charter schools but a receptive environment. 
And I think that makes some sense.
    On the voucher issue, Mr. Chairman, you know that----
    Senator Brownback. For those lowest 23 schools.
    Mr. Chavous. Yes.
    Senator Brownback. That have the most problems.
    Mr. Chavous. But for the voucher issue, citizens of the 
District have spoken out rather resoundingly against vouchers. 
There has been a referendum on it. In the Goals 2000, they have 
spoken out against it. That is something that a lot of citizens 
in the city feel would clearly run at cross-purposes with 
creating a strong vibrant public school system, and that is the 
way a lot of folks in this city feel.
    Senator Brownback. Well, then they would have the option to 
stay there, would they not, with a voucher? If they have a 
voucher, and they think the public school is the place to stay, 
they would have that option.
    Mr. Chavous. Well, certainly, and if this Subcommittee and 
this Congress would impose the voucher system on the citizens, 
I have heard earlier testimony about the fact that you all have 
that right to impose such a system, it would be imposed at 
cross-purposes with the desires and wishes of a lot of citizens 
in the District of Columbia.
    Senator Brownback. And then they would have the choice to 
stay in their public school.
    Mr. Chavous. Well, unfortunately we are in a situation 
where we do not have a choice to participate in your decisions. 
I mean we are disenfranchised to a large extent, and we do not 
have anyone who comes from the District of Columbia serving in 
the U.S. Senate, and, yes, if you and your colleagues would 
make that imposition, then of course we would have that choice, 
but I think with all due respect there should be some deference 
given to the homerule considerations that the citizens have 
spoken of before.
    That being aside, I have the same ultimate goals, Senator, 
that I truly believe you have. I am concerned about our 
children, and I would like to see our children learn, and I 
would like to see our children learn free of some of the 
hostility and violence that exists and I think that a good 
approach is to look at those worst performing schools and come 
up with consensus approach to dealing with the problem. I think 
that even if you all impose vouchers, that is going to take a 
period of time to put in place just getting it through 
committee, voting or what have you. I think that we can do some 
things in-house starting with evaluating these principals, 
getting parents involved, to start working with those children.
    Senator Brownback. Thank you very much. Mr. Roberts, you 
have been very patient, and I apologize for having a dialogue 
back and forth.
    Mr. Roberts. That is quite all right. I just wanted to add 
a couple of points here. When you speak directly about the 
charter and also the voucher situation. But I want to say also 
the idea that parents, and when we say what has happened in the 
school system from 20 years ago when Delegate Eleanor Holmes 
Norton and others attended the public schools and were able to 
do very well and today, and I think there are a lot of things. 
I mean the world has changed a lot in 20 years. But I know when 
I was in elementary school, my mother or my father never had to 
come into the school except for an annual event or a candy 
sale. They felt confident that the education was taking place, 
and that the professionals who stood up and said I can do the 
job, I can teach your child were, in fact, doing it.
    The difference today is that we cannot make that assumption 
for a number of reasons and decisions that have nothing to do 
with the students who are trapped in these poor performing 
schools. And I think that the answer, therefore, is that you 
have to understand to fix it today parents do have to be 
involved. All of them do not have to be there because an 
informed parent is an involved parent. An informed parent is an 
involved parent, and in Washington, D.C.'s public school system 
parents do not have the information. Many of them do not know 
how poorly their schools are performing. They do not know what 
is going on in different schools. I have been in two different 
schools, and I can say I got this much work at one and that 
much at the other. But they do not know that. If they were 
talking to each other, if parents understood, then they could 
agitate for the internal change.
    With respect to the voucher program, I was reading an 
article in the Washington Post last week, there are about 350 
private schools in the Washington metropolitan area. Currently 
the enrollment rate, I believe, is one in seven, versus one in 
nine for the country as a whole. If we take that one in seven 
figure which shows a fairly robust private school activity 
already and we doubled it somehow, and again this article was 
describing the fact that there is no room and these places are 
overcrowded, there is pressure on them to expand, but they do 
not want to lose the intimate atmosphere of the private 
setting.
    So let us say we could double it, which is a very high 
number, that would take us to two out of seven. That leaves 
five out of seven still in the system. The thing I never 
understand is what about those five? Either we are going to do 
seven out of seven or let us find a way that can handle 
everyone. Let us solve the problem for everyone, not the one. 
And so for me, the voucher question becomes what is your 
intent? Is it to liberate a few students from a bad situation, 
or is it to promote change throughout the entire system so that 
all seven children benefit? And that is what I want to see, all 
seven benefit. So when you look at that, I have a problem with 
that because of the numbers.
    When you look at the charter program, I think there is a 
lot more possibility in terms of avenues for change that could 
affect everyone. And, in fact, here in Washington, there are 
sort of semi-charter situations already occurring. I know there 
is an excellent engineering program at Dunbar. Woodson has a 
program in business. In fact, my daughter's high school, School 
Without Walls, here in Washington, she does go to the zoo to do 
biology, she does her Shakespeare at the Folger, she goes to 
the Smithsonian. So these kind of programs exist, but they are 
not official charter type situations. So I think the program 
within a program, the school within a school options, and 
further exploration of charters will give an energetic boost to 
the public school system, but I still think that until we 
recognize parents, we have to keep them informed, involved, 
engaged, until we empower them, and stop solving it for them, 
we will not get lasting change.
    Senator Brownback. Good. Thank you very much. Thank you 
both. We do share the same objective. We may think that there 
are different ways to get at it, but clearly what this is about 
is to trying to get an educational system that is an 
improvement for all----
    Mr. Chavous. For all.
    Senator Brownback [continuing]. Involved in it. And we will 
keep having lively discussions. But soon we need to act because 
we have too many kids that it is just not working for. But I 
thank you both very much for your commitment and your work and 
I look forward to further dialogue and discussion.
    Mr. Chavous. Thank you.
    Senator Brownback. Thank you all very much for attending. 
The hearing is adjourned.
    [Whereupon, at 12:50 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] TH327.001
    
    [GRAPHIC] [TIFF OMITTED] TH327.002
    
    [GRAPHIC] [TIFF OMITTED] TH327.003
    
    [GRAPHIC] [TIFF OMITTED] TH327.004
    
    [GRAPHIC] [TIFF OMITTED] TH327.005
    
    [GRAPHIC] [TIFF OMITTED] TH327.006
    
    [GRAPHIC] [TIFF OMITTED] TH327.007
    
    [GRAPHIC] [TIFF OMITTED] TH327.008
    
    [GRAPHIC] [TIFF OMITTED] TH327.009
    
    [GRAPHIC] [TIFF OMITTED] TH327.010
    
    [GRAPHIC] [TIFF OMITTED] TH327.011
    
    [GRAPHIC] [TIFF OMITTED] TH327.012
    
    [GRAPHIC] [TIFF OMITTED] TH327.013
    
    [GRAPHIC] [TIFF OMITTED] TH327.014
    
    [GRAPHIC] [TIFF OMITTED] TH327.015
    
    [GRAPHIC] [TIFF OMITTED] TH327.016
    
    [GRAPHIC] [TIFF OMITTED] TH327.017
    
    [GRAPHIC] [TIFF OMITTED] TH327.018
    
    [GRAPHIC] [TIFF OMITTED] TH327.019
    
    [GRAPHIC] [TIFF OMITTED] TH327.020
    
    [GRAPHIC] [TIFF OMITTED] TH327.021
    
    [GRAPHIC] [TIFF OMITTED] TH327.022
    
    [GRAPHIC] [TIFF OMITTED] TH327.023
    
    [GRAPHIC] [TIFF OMITTED] TH327.024
    
    [GRAPHIC] [TIFF OMITTED] TH327.025
    
    [GRAPHIC] [TIFF OMITTED] TH327.026
    
    [GRAPHIC] [TIFF OMITTED] TH327.027
    
    [GRAPHIC] [TIFF OMITTED] TH327.028
    
    [GRAPHIC] [TIFF OMITTED] TH327.029
    
    [GRAPHIC] [TIFF OMITTED] TH327.030
    
    [GRAPHIC] [TIFF OMITTED] TH327.031
    
    [GRAPHIC] [TIFF OMITTED] TH327.032
    
    [GRAPHIC] [TIFF OMITTED] TH327.033
    
    [GRAPHIC] [TIFF OMITTED] TH327.034
    
    [GRAPHIC] [TIFF OMITTED] TH327.035
    
    [GRAPHIC] [TIFF OMITTED] TH327.036
    
    [GRAPHIC] [TIFF OMITTED] TH327.037
    
    [GRAPHIC] [TIFF OMITTED] TH327.038
    
    [GRAPHIC] [TIFF OMITTED] TH327.039
    
    [GRAPHIC] [TIFF OMITTED] TH327.040
    
    [GRAPHIC] [TIFF OMITTED] TH327.041
    
    [GRAPHIC] [TIFF OMITTED] TH327.042
    
    [GRAPHIC] [TIFF OMITTED] TH327.043
    
    [GRAPHIC] [TIFF OMITTED] TH327.044
    
    [GRAPHIC] [TIFF OMITTED] TH327.045
    
    [GRAPHIC] [TIFF OMITTED] TH327.046
    
    [GRAPHIC] [TIFF OMITTED] TH327.047
    
    [GRAPHIC] [TIFF OMITTED] TH327.048
    
    [GRAPHIC] [TIFF OMITTED] TH327.049
    
    [GRAPHIC] [TIFF OMITTED] TH327.050
    
    [GRAPHIC] [TIFF OMITTED] TH327.051
    
    [GRAPHIC] [TIFF OMITTED] TH327.052
    
    [GRAPHIC] [TIFF OMITTED] TH327.053
    
    [GRAPHIC] [TIFF OMITTED] TH327.054
    
    [GRAPHIC] [TIFF OMITTED] TH327.055
    
    [GRAPHIC] [TIFF OMITTED] TH327.056
    
    [GRAPHIC] [TIFF OMITTED] TH327.057
    
    [GRAPHIC] [TIFF OMITTED] TH327.058
    
    [GRAPHIC] [TIFF OMITTED] TH327.059
    
    [GRAPHIC] [TIFF OMITTED] TH327.060
    
    [GRAPHIC] [TIFF OMITTED] TH327.061
    
    [GRAPHIC] [TIFF OMITTED] TH327.062
    
    [GRAPHIC] [TIFF OMITTED] TH327.063
    
    [GRAPHIC] [TIFF OMITTED] TH327.064
    
    [GRAPHIC] [TIFF OMITTED] TH327.065
    
    [GRAPHIC] [TIFF OMITTED] TH327.066
    
    [GRAPHIC] [TIFF OMITTED] TH327.067
    
    [GRAPHIC] [TIFF OMITTED] TH327.068
    
    [GRAPHIC] [TIFF OMITTED] TH327.069
    
    [GRAPHIC] [TIFF OMITTED] TH327.070
    
    [GRAPHIC] [TIFF OMITTED] TH327.071
    
    [GRAPHIC] [TIFF OMITTED] TH327.072
    
    [GRAPHIC] [TIFF OMITTED] TH327.073
    
    [GRAPHIC] [TIFF OMITTED] TH327.074
    
    [GRAPHIC] [TIFF OMITTED] TH327.075
    
    [GRAPHIC] [TIFF OMITTED] TH327.076
    
    [GRAPHIC] [TIFF OMITTED] TH327.077
    
    [GRAPHIC] [TIFF OMITTED] TH327.078
    
    [GRAPHIC] [TIFF OMITTED] TH327.079
    
    [GRAPHIC] [TIFF OMITTED] TH327.080
    
    [GRAPHIC] [TIFF OMITTED] TH327.081
    
    [GRAPHIC] [TIFF OMITTED] TH327.082
    
    [GRAPHIC] [TIFF OMITTED] TH327.083
    
    [GRAPHIC] [TIFF OMITTED] TH327.084
    
    [GRAPHIC] [TIFF OMITTED] TH327.085
    
    [GRAPHIC] [TIFF OMITTED] TH327.086
    
    [GRAPHIC] [TIFF OMITTED] TH327.087
    
    [GRAPHIC] [TIFF OMITTED] TH327.088
    
    [GRAPHIC] [TIFF OMITTED] TH327.089
    
    [GRAPHIC] [TIFF OMITTED] TH327.090
    
    [GRAPHIC] [TIFF OMITTED] TH327.091
    
    [GRAPHIC] [TIFF OMITTED] TH327.092
    
    [GRAPHIC] [TIFF OMITTED] TH327.093
    
    [GRAPHIC] [TIFF OMITTED] TH327.094
    
    [GRAPHIC] [TIFF OMITTED] TH327.095
    
    [GRAPHIC] [TIFF OMITTED] TH327.096
    
    [GRAPHIC] [TIFF OMITTED] TH327.097
    
    [GRAPHIC] [TIFF OMITTED] TH327.098
    
    [GRAPHIC] [TIFF OMITTED] TH327.099
    
    [GRAPHIC] [TIFF OMITTED] TH327.100
    
    [GRAPHIC] [TIFF OMITTED] TH327.101
    
    [GRAPHIC] [TIFF OMITTED] TH327.102
    
    [GRAPHIC] [TIFF OMITTED] TH327.103
    
    [GRAPHIC] [TIFF OMITTED] TH327.104
    
    [GRAPHIC] [TIFF OMITTED] TH327.105
    
    [GRAPHIC] [TIFF OMITTED] TH327.106
    
    [GRAPHIC] [TIFF OMITTED] TH327.107
    
    [GRAPHIC] [TIFF OMITTED] TH327.108
    
    [GRAPHIC] [TIFF OMITTED] TH327.109
    
    [GRAPHIC] [TIFF OMITTED] TH327.110
    
    [GRAPHIC] [TIFF OMITTED] TH327.111
    
    [GRAPHIC] [TIFF OMITTED] TH327.112
    
    [GRAPHIC] [TIFF OMITTED] TH327.113
    
    [GRAPHIC] [TIFF OMITTED] TH327.114
    
    [GRAPHIC] [TIFF OMITTED] TH327.115
    
    [GRAPHIC] [TIFF OMITTED] TH327.116
    
    [GRAPHIC] [TIFF OMITTED] TH327.117
    
    [GRAPHIC] [TIFF OMITTED] TH327.118
    
    [GRAPHIC] [TIFF OMITTED] TH327.119
    
    [GRAPHIC] [TIFF OMITTED] TH327.120
    
    [GRAPHIC] [TIFF OMITTED] TH327.121
    
    [GRAPHIC] [TIFF OMITTED] TH327.122
    
    [GRAPHIC] [TIFF OMITTED] TH327.123
    
    [GRAPHIC] [TIFF OMITTED] TH327.124
    
    [GRAPHIC] [TIFF OMITTED] TH327.125
    
    [GRAPHIC] [TIFF OMITTED] TH327.126
    
    [GRAPHIC] [TIFF OMITTED] TH327.127
    
    [GRAPHIC] [TIFF OMITTED] TH327.128
    
    [GRAPHIC] [TIFF OMITTED] TH327.129
    
    [GRAPHIC] [TIFF OMITTED] TH327.130
    
    [GRAPHIC] [TIFF OMITTED] TH327.131
    
    [GRAPHIC] [TIFF OMITTED] TH327.132
    
    [GRAPHIC] [TIFF OMITTED] TH327.133
    
    [GRAPHIC] [TIFF OMITTED] TH327.134
    
    [GRAPHIC] [TIFF OMITTED] TH327.135
    
    [GRAPHIC] [TIFF OMITTED] TH327.136
    
    [GRAPHIC] [TIFF OMITTED] TH327.137
    
    [GRAPHIC] [TIFF OMITTED] TH327.138
    
    [GRAPHIC] [TIFF OMITTED] TH327.139
    
    [GRAPHIC] [TIFF OMITTED] TH327.140
    
    [GRAPHIC] [TIFF OMITTED] TH327.141
    
    [GRAPHIC] [TIFF OMITTED] TH327.142
    
    [GRAPHIC] [TIFF OMITTED] TH327.143
    
    [GRAPHIC] [TIFF OMITTED] TH327.144
    
    [GRAPHIC] [TIFF OMITTED] TH327.145
    
    [GRAPHIC] [TIFF OMITTED] TH327.146
    
    [GRAPHIC] [TIFF OMITTED] TH327.147
    
    [GRAPHIC] [TIFF OMITTED] TH327.148
    
    [GRAPHIC] [TIFF OMITTED] TH327.149
    
    [GRAPHIC] [TIFF OMITTED] TH327.150
    
    [GRAPHIC] [TIFF OMITTED] TH327.151
    
    [GRAPHIC] [TIFF OMITTED] TH327.152
    
    [GRAPHIC] [TIFF OMITTED] TH327.153
    
    [GRAPHIC] [TIFF OMITTED] TH327.154
    
    [GRAPHIC] [TIFF OMITTED] TH327.155
    
    [GRAPHIC] [TIFF OMITTED] TH327.156
    
    [GRAPHIC] [TIFF OMITTED] TH327.157
    
    [GRAPHIC] [TIFF OMITTED] TH327.158
    
    [GRAPHIC] [TIFF OMITTED] TH327.159
    
    [GRAPHIC] [TIFF OMITTED] TH327.160
    
    [GRAPHIC] [TIFF OMITTED] TH327.161
    
    [GRAPHIC] [TIFF OMITTED] TH327.162
    
    [GRAPHIC] [TIFF OMITTED] TH327.163
    
    [GRAPHIC] [TIFF OMITTED] TH327.164
    
    [GRAPHIC] [TIFF OMITTED] TH327.165
    
    [GRAPHIC] [TIFF OMITTED] TH327.166
    
    [GRAPHIC] [TIFF OMITTED] TH327.167
    
    [GRAPHIC] [TIFF OMITTED] TH327.168
    
    [GRAPHIC] [TIFF OMITTED] TH327.169
    
    [GRAPHIC] [TIFF OMITTED] TH327.170
    
    [GRAPHIC] [TIFF OMITTED] TH327.171
    
    [GRAPHIC] [TIFF OMITTED] TH327.172
    
    [GRAPHIC] [TIFF OMITTED] TH327.173
    
    [GRAPHIC] [TIFF OMITTED] TH327.174
    
    [GRAPHIC] [TIFF OMITTED] TH327.175
    
    [GRAPHIC] [TIFF OMITTED] TH327.176
    
    [GRAPHIC] [TIFF OMITTED] TH327.177
    
    [GRAPHIC] [TIFF OMITTED] TH327.178
    
    [GRAPHIC] [TIFF OMITTED] TH327.179
    
    [GRAPHIC] [TIFF OMITTED] TH327.180
    
    [GRAPHIC] [TIFF OMITTED] TH327.181
    
    [GRAPHIC] [TIFF OMITTED] TH327.182
    
    [GRAPHIC] [TIFF OMITTED] TH327.183
    
    [GRAPHIC] [TIFF OMITTED] TH327.184
    
    [GRAPHIC] [TIFF OMITTED] TH327.185
    
    [GRAPHIC] [TIFF OMITTED] TH327.186
    
    [GRAPHIC] [TIFF OMITTED] TH327.187
    
    [GRAPHIC] [TIFF OMITTED] TH327.188
    
    [GRAPHIC] [TIFF OMITTED] TH327.189
    
    [GRAPHIC] [TIFF OMITTED] TH327.190
    
    [GRAPHIC] [TIFF OMITTED] TH327.191
    
    [GRAPHIC] [TIFF OMITTED] TH327.192
    
    [GRAPHIC] [TIFF OMITTED] TH327.193
    
    [GRAPHIC] [TIFF OMITTED] TH327.194
    
    [GRAPHIC] [TIFF OMITTED] TH327.195
    
    [GRAPHIC] [TIFF OMITTED] TH327.196
    
    [GRAPHIC] [TIFF OMITTED] TH327.197
    
    [GRAPHIC] [TIFF OMITTED] TH327.198
    
    [GRAPHIC] [TIFF OMITTED] TH327.199
    
    [GRAPHIC] [TIFF OMITTED] TH327.200
    
    [GRAPHIC] [TIFF OMITTED] TH327.201
    
    [GRAPHIC] [TIFF OMITTED] TH327.202
    
    [GRAPHIC] [TIFF OMITTED] TH327.203
    
    [GRAPHIC] [TIFF OMITTED] TH327.204
    
    [GRAPHIC] [TIFF OMITTED] TH327.205
    
    [GRAPHIC] [TIFF OMITTED] TH327.206
    
    [GRAPHIC] [TIFF OMITTED] TH327.207
    
    [GRAPHIC] [TIFF OMITTED] TH327.208
    
    [GRAPHIC] [TIFF OMITTED] TH327.209
    
    [GRAPHIC] [TIFF OMITTED] TH327.210
    
    [GRAPHIC] [TIFF OMITTED] TH327.211
    
                                  <all>

</pre></body></html>
